<html>
<title> - AUTHORIZATION FOR THE USE OF MILITARY FORCE AGAINST ISIL</title>
<body><pre>[Senate Hearing 113-699]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 113-699
 
                        AUTHORIZATION FOR THE USE OF 
                        MILITARY FORCE AGAINST ISIL

=======================================================================

                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                        U.S. GOVERNMENT PUBLISHING OFFICE
95-891 PDF                  WASHINGTON : 2015                        
      
_______________________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>  
      
      


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Robert Menendez, U.S. Senator from New Jersey...............     1
Hon. Bob Corker, U.S. Senator from Tennessee.....................     3
Hon. John F. Kerry, Secretary of State, U.S. Department of State, 
  Washington, DC.................................................     4
      Prepared statement.........................................     8

              Additional Material Submitted for the Record

ISIS Jihadis Get ``Slavery for Dummies,'' by Jamie Dettmer, from 
  The Daily Beast, December 9, 2014..............................    63

                                 (iii)

  

 
                     AUTHORIZATION FOR THE USE OF 
                      MILITARY FORCE AGAINST ISIL

                              ----------                              


                       TUESDAY, DECEMBER 9, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m., in 
room 106, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Boxer, Cardin, Shaheen, Coons, 
Durbin, Udall, Murphy, Kaine, Markey, Corker, Risch, Rubio, 
Johnson, Flake, McCain, Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This committee will come to order. Mr. 
Secretary, we welcome you back to the committee, and we thank 
you for being here today to discuss one of the most important 
challenges that Congress must meet.
    When you last appeared before this committee in September, 
you asked Congress to authorize the use of military force 
against ISIL, and we have an AUMF that the committee will 
consider later this week. Today we are asking you to provide 
the administration's views on this text and on your strategic 
planning to counter ISIL along with the range of military 
authorities you will need to achieve your goals.
    This is the most important vote that any member of Congress 
can take. It is a vote that potentially sends America's sons 
and daughters into harm's way, and we do not take that 
responsibility lightly. That reality demands our full attention 
and consideration of three issues. First, whether military 
action to counter ISIL is necessary and in the national 
security interests of the United States. I believe that it is, 
and I doubt anyone on the committee would disagree. I believe 
that the risk of ISIL acquiring a safe haven in Iraq or Syria 
or beyond from which it can create the operational capacity to 
attack American interests and, at some point, America itself 
demands action. Second, we need to understand the political and 
military goals of this operation, how we expect to achieve 
them, and the timeframe of this campaign.
    Now, I know some may see this as limiting, but at the end 
of the day Americans will not be supportive of an authorization 
of an endless war. They do not want us to occupy Iraq for 
decades. They do not want an ISIL recruitment AUMF allowing 
ISIL to claim a jihad against Western crusaders that enhances 
their ability to recruit followers who want to fight Americans. 
In my view, deployment of ground troops at this time would be 
Groundhog Day in Iraq all over again. Lastly, we need to hear 
what authorities the Commander in Chief expects that he will 
need from Congress to achieve his political and military goals 
of defeating ISIL and closing the region to extremists and 
terrorists.
    Now, frankly, the process we undertake today is not the one 
I sought. I had hoped to begin this conversation weeks ago so 
that the entire Senate, not just this committee, would have 
time to consider a comprehensive bipartisan AUMF. But that did 
not happen, and we are here today to begin the process of 
taking action. I think the American people expect their 
congressional leaders to engage fully on this issue, to 
understand the mission, the parameters, and the risks.
    As I have said many times, I am not comfortable with the 
administration's reliance on the 9/11 AUMF and the 2002 Iraq 
AUMF. The 9/11 AUMF was adopted to counter al-Qaeda in the wake 
of the September 11 attacks. No member could have foreseen that 
we would still be acting under its authority 13 years later. I 
do not believe that it provides the authority to pursue a new 
enemy in different countries under completely different 
circumstances than existed 13 years ago.
    Congress, rather than the Executive, has the responsibility 
and the authority to authorize military action and to declare 
war for these very reasons. We are the check and balance on 
Executive power regardless of who that Executive is, and if we 
abandon that role, then we will have done a grave disservice to 
the American people.
    The text that I have presented is based on consultations 
with members of the committee and addresses the authorities we 
understand the White House is seeking. In my view, an ISIL-
specific AUMF should in broad terms authorize the President to 
use military force against ISIL and associated persons or 
forces, meaning individuals or organizations, fighting for, or 
on behalf of, ISIL. It should limit the activities of our 
forces so that there will be no large-scale ground combat 
operations. If the President feels he needs that, then he 
should ask for it and Congress can consider it. It should limit 
the authorization to 3 years, and it should require the 
administration to report to Congress every 60 days.
    As drafted, the text would limit the authorization of force 
by not allowing ground combat operations except as necessary 
for the protection or rescue of U.S. soldiers or citizens, for 
intelligence operations, spotters to enable airstrikes, 
operational planning, or other forms of advice and assistance. 
The authorization would be limited to 3 years.
    The President has said that this will be a multiyear 
campaign, but I do not believe that the AUMF should be 
unlimited. A 3-year timeframe would allow this President and a 
new President time to assess the situation and make a 
responsible decision together with the Congress about whether 
and how to continue military action. So that said, Mr. 
Secretary, we would love to hear from the administration what 
the framework is, what you see as the U.S.-led strategy to 
counter ISIL.
    Finally, let me conclude by saying I do not believe that 
placing limitations in this AUMF sends a message of weakness to 
our enemies. This authorization is intended to provide the 
authority required by the Commander in Chief to do our part in 
this multinational effort to defeat ISIL. ISIL is not only an 
American problem. It is a global problem, and no ISIL strategy 
can rely on American military power alone. We need to train 
Iraqi Security Forces and Kurdish Peshmerga forces; stand up 
and train and equip programs for moderate Syrian fighters, 
which are being authorized in the defense authorization bill 
that the Congress will consider this week, work with coalition 
partners to cut off terror financing and foreign fighter flows, 
and provide humanitarian aid to address the urgent, desperate 
situation of millions in the region whose lives have been 
uprooted.
    We look forward to working with you, Mr. Secretary, and the 
administration on our mutual goal of degrading and defeating 
ISIL. And, again, we welcome you back to the committee. Let me 
turn to the distinguished ranking member for his remarks, 
Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you for allowing us to 
move away from what we considered last week, which was an AUMF 
that was an amendment to a water bill. I think that is a step 
forward, and I appreciate you doing that. I want to thank the 
Secretary for being here. I am not sure that--matter of fact, I 
am pretty sure this is not where he would like to be this 
afternoon, so I thank you for coming before our committee.
    And I want to thank the chairman again for trying to set up 
a process this week that was thorough, but that has not 
occurred, and I think everyone understands that some of the 
things that will be discussed obviously are things like boots 
on the ground, and yet we have no defense presentations here. 
We have no intelligence presentations here.
    And I would also say that back in the Syrian issue, the 
original Syrian issue, about a year and a half ago, where we 
were authorizing something that--these are my words--was going 
to last about 10 hours, we were able to go through a process 
that was much more serious than the one we are going to have 
this week. I think all of us know that whatever passes out of 
the committee this week is not going to become law. I agree 
with some comments that the chairman and I had earlier, and 
that is, well, at least this will be a part of a process, and I 
thank him for saying that, and I agree with that.
    At the same time, just for what it is worth, I do not 
think--I know we are not going to get to a place where the 
House and Senate pass an authorization. And I just want to say 
we weaken our Nation when we begin a process like that and we 
do not actually enact it in law. We weaken our Nation. I think 
we also hurt our Nation when we attempt to pass something out 
on a partisan basis. One of the things about the earlier Syrian 
AUMF was it had bipartisan support and bipartisan opposition. 
So, for what it is worth, regardless of what happens in these 
meetings this week, my plan of conduct personally is to act in 
such a way that hopefully will not harden positions, but will 
build for an opportunity for us to act in a more full way down 
the road.
    I do want to say that I think the testimony today will be 
helpful. I listened to the chairman's comments and then refer 
to the fact that the 60-word authorization that was passed 
September the 18th of 2001 has led to some outcomes that people 
did not anticipate. And that is why from my standpoint I would 
like to have something much more full, much more understood, a 
strategy that is laid out in a way that I understand where we 
are going prior to authorizing a complete authorization. If you 
look at our Nation since World War II, we have had multiple 
conflicts. It is hard to remember one that ended up with a very 
satisfactory outcome. What we do is we tend to start these 
conflicts without really teasing out from the administration in 
most cases how we are going to actually go about being 
successful, so we start the process.
    In this particular case, it appears that an AUMF has been 
offered to start the process that actually limits the Commander 
in Chief's ability to carry it out. As a matter of fact, what 
would happen under this authorization is right now we can use 
all efforts, if you will, to go against al-Qaeda, but if we 
were to pass this authorization as written, we would be saying 
against ISIS we can only do certain things, that somehow we 
must view them as being a lesser evil than the al-Qaeda 
effort--the al-Qaeda group that we have gone after and the 
Taliban group that we have gone after in Afghanistan.
    I hope that, again, we will all conduct ourselves in a 
manner this week that will not harden positions. We are not 
going to do anything that passes, unfortunately. I do not think 
that is good for our Nation. I think it is better to start this 
at a time we can finish it with a Congress, by the way, that 
will actually deal with this from start to finish. But I do 
appreciate, again, the chairman deferring to this week trying 
to make the process slightly better. And I certainly 
appreciate, in spite of the fact we do not have a full 
presentation, I appreciate Secretary Kerry being here today and 
making the presentation he is going to make.
    The Chairman. Mr. Secretary.

          STATEMENT OF HON. JOHN F. KERRY, SECRETARY, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kerry. Well, Mr. Chairman, and Ranking Member 
Corker, and all my former colleagues, it is really is a 
pleasure for me to be back before the Foreign Relations 
Committee.
    You know, during my time here, I think we got some things 
right. We certainly wound up wishing we had done some things 
differently. But I think most of us would agree, and I saw it 
during both parties' chairmanships, including the years that 
Senator Lugar and I were here, that this committee works best 
and makes the greatest contribution to our foreign policy and 
our country when it addresses the most important issues in a 
strong, bipartisan fashion, and this is one of those issues. 
The chairman and the ranking member have both said that. This 
is one of the moments when a bipartisan approach really is 
critical.
    As you know, the President is committed to engaging with 
the committee and all of your colleagues in the House and 
Senate regarding a new authorization for the use of military 
force--as we call it in short, the AUMF--specifically against 
the terrorist group known as ISIL, though in the region it is 
called Daesh, and specifically because they believe very deeply 
it is not a state, and it does not represent Islam.
    So we are looking for this authorization with respect to 
efforts against Daesh and affiliated groups. And I want to 
thank Chairman Menendez and the entire committee for leading 
the effort in Congress and for all of the important work that 
you have already done on this complicated and challenging 
issue. It is important that this committee lead the Congress 
and the country, and I think you know I believe that.
    Now, I realize we may not get there overnight. I have heard 
the ranking member's comments just now, and we understand the 
clock. We certainly will not resolve everything and get there 
this afternoon in the next few hours. But I do think this 
discussion is important, and I think we all agree that this 
discussion has to conclude with a bipartisan vote that makes 
clear that this is not one party's fight against Daesh, but 
rather that it reflects our united determination to degrade and 
ultimately defeat Daesh.
    And the world needs to understand that from the U.S. 
Congress above all.
    Our coalition partners need to know that from all of you, 
and the men and women of our armed forces deserve to know it 
from all of you, and Daesh's cadre of killers and rapist and 
bigots need to absolutely understand it clearly. That is why 
this matters. Now, toward that end, we ask you now to work 
closely with us on a bipartisan basis to develop language that 
provides a clear signal of support for our ongoing military 
operations against Daesh.
    Our position on the text is really pretty straightforward. 
The authorization, or AUMF, should give the President the clear 
mandate and the flexibility he needs to successfully prosecute 
the armed conflict against Daesh and affiliated forces, but the 
authorization should also be limited and specific to the threat 
posed by that group and by forces associated with it. Now, I 
will come back to the question of the AUMF in a minute. But we 
believe that as we embark on this important discussion, context 
matters. All of us want to see the United States succeed, and 
all of us want to see Daesh defeated, so we are united on that. 
And I want to bring the committee up to date on precisely where 
our campaign now stands.
    Mr. Chairman, less than 3 months ago, perhaps 2\1/2\ 
months, perhaps a little more, have passed since the 
international community came together in a coalition whose 
purpose is to degrade and defeat Daesh. Two and a half months 
ago it did not exist--not ``it'' Daesh, but the coalition and 
the 60 countries that assembled recently in Brussels. We 
organized, and I had the privilege of chairing, the first 
ministerial level meeting of the coalition last week in 
Brussels. We heard Iraqi Prime Minister al-Abadi describe to us 
the effort that his leadership team is making to bring Iraqis 
together, strengthen their security forces, take the fight to 
Daesh, and improve and reform governance. We also heard Gen. 
John Allen, our special envoy to the coalition, review the 
progress that is being made in the five lines of coalition 
effort: to shrink the territory controlled by Daesh, to cut off 
its financing, to block its recruitment of foreign fighters, to 
expose the hypocrisy of its absurd religious claims, and to 
provide humanitarian aid to the victims of its violence.
    During the meeting, I have to tell you I was particularly 
impressed by the leadership activism, and, quite frankly, the 
anger toward Daesh that is being displayed by Arab and Muslim 
states. Governments that do not always agree on other issues 
are coming together in opposition to this profoundly anti-
Islamic terrorist organization. And now, to be clear, ISIL 
continues to commit serious, vicious crimes, and it still 
controls more territory than al-Qaeda ever did. It will be 
years, not months, before it is defeated. We know that. But our 
coalition is measurably already making a difference.
    To date, we have launched more than 1,150 today airstrikes 
against Daesh. These operations have reduced its leadership, 
undermined its propaganda, squeezed its resources, damaged its 
logistical and operational capabilities, and compelled it to 
disperse its forces and change its tactics. It is becoming 
clear that the combination of coalition airstrikes and local 
ground partners is a potent one. In fact, virtually every time 
a local Iraqi force has worked in coordination with our air 
cover, they have not only defeated Daesh, they have routed it.
    In Iraq, progress also continues in the political arena, 
and this is no less important frankly. Last week after years of 
intensive efforts, the Government in Baghdad reached an interim 
accord with the Kurdistan regional government on hydrocarbon 
exports and revenue-sharing. That has been long sought after, 
and it is a big deal that they got it. It is good for the 
country's economy, but it is even better for its unity and 
stability and for the imprint of the direction that they are 
moving in.
    In addition, the new Defense Minister is a Sunni, whose 
appointment was an important step toward a more inclusive 
government. And with his leadership, and that of the new 
Interior Minister, the process of reforming the nation's 
security forces has a genuine chance for success. Meanwhile, 
the Prime Minister is taking bold steps to improve relations 
with his country's neighbors, and those neighbors, including 
Saudi Arabia, the UAE, and Turkey, have been responding. Now, I 
want to underscore, it is too early to declare a new era in 
regional relations. But countries that had been drifting apart 
or even in conflict with each other, are now in the process of 
coming together and breaking down the barriers that were 
created. And that is helpful to our coalition, and it is bad 
news for Daesh.
    Beating back the threat that Daesh poses to Iraq is job 
number one for our Iraqi partners and for our coalition. But 
even if the Government in Baghdad fulfills its 
responsibilities, it is still going to face a dire challenge 
because of the events in Syria. Now, if you recall, the 
coalition's decision to carry out airstrikes in Syria came in 
response to a request from Iraq for help in defending against 
Daesh's brazen attack. To date, we and our Arab partners have 
conducted over 500 airstrikes in Syria, targeting areas where 
Daesh had concentrated its fighters, targeting on command and 
control nodes, finance centers, training camps, and oil 
refineries. Our objective is to further degrade Daesh's 
capabilities and to deny it the freedom of movement and 
resupply that it has previously enjoyed.
    At the same time, we will continue to build up the 
capabilities of the moderate opposition, and here I want to 
thank the members of this committee and many others in Congress 
who have supported these efforts and supported them very 
strongly. Our goal is to help the moderate forces stabilize 
areas under their control, defend civilians, empower them to go 
on offense against Daesh, and promote the conditions for a 
negotiated political transition, recognizing, as I think almost 
every person has said, there no military solution.
    Now, Mr. Chairman, we all know that Daesh is a threat to 
America's security and interests. It poses an unaccepted danger 
to our personnel and facilities in Iraq and elsewhere. It seeks 
to destroy both the short- and long-term stability of the 
broader Middle East, and it is exacerbating a refugee crisis 
that has placed extraordinary economic and political burden on 
our friends and allies in the region.
    One thing is certain. Daesh will continue to spread until 
or unless it is stopped. So there should be no question that 
we, with our partners, have a moral duty and a profound 
international security interest and national security interest 
in stopping them. That is where the fight against Daesh now 
stands. A coalition that 2\1/2\ months ago did not even exist 
is now taking the fight to the enemy. It was cobbled together 
by strong American leadership and by steady, intensive 
diplomacy with countries that disagree on many things, but all 
share an aversion to extremism.
    Now, I think all of you would agree, we need to summon that 
same determination to find the common ground here in 
Washington. And that is why in the hours, days, and weeks to 
come we are determined to work with you, first and foremost to 
develop an approach that can generate broad bipartisan support, 
while ensuring that the President has the flexibility to 
successfully prosecute this effort. That is the balance.
    What do we envision specifically regarding an AUMF? 
Importantly, and I think I will lay out today a very clear set 
of principles that I hope will be instructive, we do not think 
an AUMF should include a geographic limitation. We do not 
anticipate conducting operations in countries other than Iraq 
or Syria, but to the extent that ISIL poses a threat to 
American interests and personnel in other countries, we would 
not want an AUMF to constrain our ability to use appropriate 
force against ISIL in those locations if necessary. In our 
view, it would be a mistake to advertise to ISIL that there are 
safe havens for them outside of Iraq or Syria.
    On the issue of combat operations, I know this is hotly 
debated, as it ought to be and as it is, with passionate and 
persuasive arguments on both sides. The President has been 
crystal clear that his policy is that U.S. military forces will 
not be deployed to conduct ground combat operations against 
ISIL, and that will be the responsibility of local forces 
because that is what our local partners and allies want. That 
is what we learned works best in the context of our Iraq 
experience. That is what is best for preserving our coalition, 
and, most importantly, it is in the best interests of the 
United States. However, while we certainly believe that this is 
the soundest possible policy, and while the President has been 
clear he is open to clarifications on the use of U.S. combat 
troops to be outlined in an AUMF, it does not mean that we 
should preemptively bind the hands of the Commander in Chief or 
our commanders in the field in responding to scenarios and 
contingencies that are impossible to foresee.
    And finally, with respect to duration, we can be sure that 
this confrontation is not going to be over quickly, as the 
President and I have said many times. We understand, however, 
the desire of many to avoid a completely open-ended 
authorization. And I note that Chairman Menendez has suggested 
that a 3-year limitation should be put into an AUMF. We support 
that proposal, but we support it subject to a provision that we 
should work through together that provides for extension in the 
event that circumstances require it, and we think it ought to 
be advertised as such up front.
    To sum up, Mr. Chairman and members of the committee, I ask 
for your help in, above all, approving on a bipartisan basis 
with the strongest vote possible because everybody will read 
messages into that vote, an authorization for use of military 
force in connection with our campaign and that of our many 
partners in order to defeat a terrible, vicious, different kind 
of enemy. Almost a quarter of a century ago when I was here, 
then a 47-year-old Senator with certainly a darker head of 
hair, President George H.W. Bush, sent his Secretary of State, 
James Baker, to ask this committee for the authority to respond 
militarily to the Iraqi invasion of Kuwait. The country was 
divided. Congress was divided. But this committee drafted an 
authorization, and it passed the Congress with a majority that 
the New York Times described as decisive and bipartisan. And 
armed with that mandate, Secretary Baker built the coalition 
that won the first gulf war.
    Now, that was a different time, and it was a different 
conflict, and it called for a different response. But it was 
also this body, this committee and then the Senate, at its 
bipartisan best. And what we need from you today to strengthen 
and unify our own coalition is exactly that kind of cooperative 
effort. The world will be watching what we together are willing 
and able to do, and this, obviously, is not a partisan issue. 
It is a leadership issue. It is a test of our government's 
ability and our Nation's ability to stand together. It is a 
test of our generation's resolve to build a safer and more 
secure world. And I know every single one of you wants to 
defeat ISIL.
    A bold bipartisan mandate would strengthen our hand, and I 
hope that today you can move close to that goal. So thank you, 
and I am pleased to answer any questions.
    [The prepared statement of Secretary Kerry follows:]

         Prepared Statement of Secretary of State John F. Kerry

    Mr. Chairman, Ranking Member Corker--Senators--good afternoon, 
thank you for having me back to the Foreign Relations Committee.
    During my time here, we got many things right, and some things we 
wish we had done differently. But I think that most of us would agree--
and I saw it during both parties' chairmanships, including the years 
Senator Lugar and I were here--that this committee works best, and 
makes the greatest contribution to our foreign policy, when it 
addresses the most important issues on a strong, bipartisan basis.
    This is one of those issues, and one of those moments, when that 
approach is critical.
    As you know, the President is committed to engaging with this 
committee and your colleagues in the Senate and House of 
Representatives regarding a new Authorization to Use Military Force 
against the terrorist group known as ISIL and affiliated groups. I want 
to thank Chairman Menendez and the entire committee for leading this 
effort in Congress and for all of the important work you have already 
done on this complicated and challenging issue.
    I realize we may not get there overnight--and we certainly won't 
resolve everything and get there this afternoon. But I think we all 
agree that this discussion must conclude with a bipartisan vote that 
makes clear that this is not one party's fight against ISIL but rather 
that it reflects our unified determination to degrade and ultimately 
defeat ISIL. Our coalition partners need to know it. The men and women 
of our armed forces need to know it. And ISIL's cadres of killers, 
rapists, and bigots need to understand it.
    Toward that end, we ask you now to work closely with us on a 
bipartisan basis to develop language that provides a clear signal of 
support for our ongoing military operations against ISIL.
    Our position on the text is pretty straightforward--the 
Authorization--or AUMF--should give the President the clear mandate and 
flexibility he needs to successfully prosecute the armed conflict 
against ISIL and affiliated forces; but the Authorization should also 
be limited and specific to the threat posed by that group and by forces 
associated with it.
    I will return to the question of the AUMF in a minute, but as we 
embark on this important discussion, context matters. All of us want to 
see the United States succeed and ISIL to be defeated, and I want to 
bring the committee up to date on where our campaign now stands.
    Mr. Chairman, less than 3 months have passed since the 
international community came together in a coalition whose purpose is 
to degrade and defeat ISIL. This past Wednesday, in Brussels, we 
organized and I had the privilege of chairing the first ministerial-
level meeting of that coalition. We heard Iraqi Prime Minister Abadi 
describe to us the effort that his leadership team is making to bring 
Iraqis together, strengthen their security forces, take the fight to 
ISIL, and improve and reform governance. We also heard General John 
Allen, our special envoy, review the progress that is being made in the 
five lines of coalition effort: to shrink the territory controlled by 
ISIL, cut off its financing, block its recruitment of foreign fighters, 
expose the hypocrisy of its absurd religious claims, and provide 
humanitarian aid to the victims of its violence.
    During the meeting, I was especially impressed by the leadership, 
activism and quite frankly, the anger toward ISIL that is being 
displayed by Arab and Muslim states. Governments that do not always 
agree on other issues are coming together in opposition to this 
profoundly anti-Islamic terrorist organization.
    Now, to be clear: ISIL continues to commit vicious crimes and it 
still controls more territory than al-Qaeda ever did. It will be years, 
not months, before it is defeated. But our coalition is already making 
a big difference.
    To date, we have launched more than 1,100 air strikes against ISIL 
targets. These operations have reduced ISIL's leadership, undermined 
its propaganda, squeezed its resources, damaged its logistical and 
operational capabilities, and compelled it to disperse its forces and 
change its tactics. It is becoming clear that the combination of 
coalition air strikes and local ground partners is a potent one. In 
fact, virtually every time a local Iraqi force has worked in 
coordination with our air cover, they've not only defeated ISIL; 
they've routed ISIL.
    In Iraq, progress also continues in the political arena. Last week, 
after years of intensive efforts, the government in Baghdad reached an 
interim accord with the Kurdistan Regional Government on hydrocarbon 
exports and revenue-sharing. That is good for the country's economy but 
even more for its unity and stability. In addition, the new Defense 
Minister is a Sunni whose appointment was an important step toward a 
more inclusive government. With his leadership and that of the new 
Interior Minister, the process of reforming the nation's security 
forces has a genuine chance for success.
    Meanwhile, the Prime Minister is taking bold steps to improve 
relations with his country's neighbors--and those neighbors including 
Saudi Arabia, the UAE, and Turkey--have been responding. It's too early 
to declare a new era in regional relations, but countries that had been 
drifting apart are in the process of coming together. That's helpful to 
our coalition and bad news for ISIL.
    Beating back the threat that ISIL poses to Iraq is job No. 1 for 
our Iraqi partners and for our coalition. But even if the government in 
Baghdad fulfills its responsibilities, it will still face a dire 
challenge because of events in Syria.
    If you recall, the coalition's decision to carry out air strikes in 
Syria came in response to a request from Iraq for help in defending 
against ISIL's brazen attack.
    To date, we and our Arab partners have conducted over 500 
airstrikes in Syria, targeting areas where ISIL has concentrated its 
fighters and on command and control nodes, finance centers, training 
camps, and oil refineries. Our objective is to further degrade ISIL's 
capabilities and to deny it the freedom of movement and resupply it had 
previously enjoyed.
    At the same time, we will continue to build up the capabilities of 
the moderate opposition. And here I want to thank the members of this 
committee and many others in Congress who have so strongly supported 
these efforts. Our goal is to help the moderate forces stabilize areas 
under their control; defend civilians; empower them to go on the 
offensive against ISIL; and promote the conditions for a negotiated 
political transition.
    Mr. Chairman, we all know that ISIL is a threat to America's 
security and interests. It poses an unacceptable danger to our 
personnel and facilities in Iraq and elsewhere. It seeks to destroy 
both the short and long term stability of the broader Middle East. And 
it is exacerbating a refugee crisis that has placed a terrible economic 
and political burden on our friends and allies in the region.
    One thing is certain. ISIL will continue to spread until it is 
stopped. So there should be no question that we, with our partners, 
have a moral duty and a profound interest in stopping them.
    That is where the fight against ISIL now stands. A coalition that 
2\1/2\ months ago did not even exist is now taking the fight to the 
enemy. It was cobbled together by strong American leadership and by 
steady, intensive diplomacy with countries that disagree on many 
things, but share an aversion to extremism. I think all of you would 
agree: we need to summon that same determination to find common ground 
here in Washington.
    That is why, in the hours, days, and weeks to come, we are 
determined to work with you first and foremost to develop an approach 
that can generate broad, bipartisan support, while ensuring the 
President has the flexibility he needs to successfully prosecute this 
effort.
    What do we envision? Importantly--we do not think an AUMF should 
include a geographic limitation. We don't anticipate conducting 
operations in countries other than Iraq or Syria. But to the extent 
that ISIL poses a threat to American interests and personnel in other 
countries, we would not want an AUMF to constrain our ability to use 
appropriate force against ISIL in those locations if necessary. In our 
view, it would be a mistake to advertise to ISIL that there are safe 
havens for them outside of Iraq and Syria.
    On the issue of combat operations: I know that this is hotly 
debated, with passionate and persuasive arguments on both sides. The 
President has been clear that his policy is that U.S. military forces 
will not be deployed to conduct ground combat operations against ISIL. 
That will be the responsibility of local forces because that is what 
our local partners and allies want, what is best for preserving our 
coalition and, most importantly, what is in the best interest of the 
United States.
    However, while we certainly believe this is the soundest policy, 
and while the President has been clear he's open to clarifications on 
the use of U.S. combat troops to be outlined in an AUMF, that does not 
mean we should preemptively bind the hands of the Commander in Chief--
or our commanders in the field--in responding to scenarios and 
contingencies that are impossible to foresee.
    Finally, with respect to duration, we can be sure that this 
confrontation will not be over quickly. We understand, however, the 
desire of many to avoid a completely open-ended authorization. I note 
that Chairman Menendez has suggested a 3-year limitation; we support 
that proposal, subject to provisions for extension that we would be 
happy to discuss.
    To sum up, Mr. Chairman and members of the committee, I ask for 
your help and support in approving--on a bipartisan basis--an 
Authorization for Use of Military Force in connection with our campaign 
and that of our many partners to defeat a terrible and dangerous enemy.
    Almost a quarter-century ago, when I was a 47-year-old Senator with 
a darker head of hair, President George H.W. Bush sent his Secretary of 
State, James Baker, to ask this committee for the authority to respond 
militarily to the Iraqi invasion of Kuwait. The country was divided. 
Congress was divided. But this committee drafted an authorization and 
it passed the Congress with a majority that the New York Times 
described as ``decisive and bipartisan.'' Armed with that mandate, 
Secretary Baker built the coalition that won the first gulf war.
    That was a different time and a different conflict that called for 
a different response. But it was also this body at its bipartisan 
best--and what we need from you today, to strengthen and unify our own 
coalition. The world will be watching what we together are willing and 
able to do. This is obviously not a partisan issue; it is a leadership 
issue. It is a test of our government's ability and our Nation's 
ability to stand together. It is a test of our generation's resolve to 
build a safer and more secure world. I know every one of you wants to 
defeat ISIL. A bold, bipartisan mandate would strengthen our hand, and 
I hope we can move closer to that today.
    Thank you, and now I would be pleased to respond to any questions 
you might have.

    The Chairman. Well, thank you, Mr. Secretary. Let me just 
say there is, I think, undoubtedly, and I will let members 
express themselves, there is a bold, bipartisan view that we 
need to defeat ISIL. I think there is no debate about that. 
Virtually every political element of the spectrum, from those 
who might be considered dovish to those who might be considered 
hawkish and everybody in between, I think has a common 
collective goal of defeating ISIL.
    Now, I must say that the administration has not sent us 5, 
6 months into this engagement an AUMF. And had the 
administration sent us an AUMF, maybe we would be better versed 
as to what the administration seeks or does not seek, and that 
would be the subject of congressional debate. But that has not 
happened. And with reference to my distinguished ranking 
member's comments, you know, if we wait for that and it is not 
forthcoming by this or any other administration, then the 
absence of getting an AUMF from the executive branch and 
Congress not acting because it is waiting for an AUMF from the 
Executive would, in essence, create a de facto veto of the 
constitutional prerogative and responsibilities that the 
Congress has. And so, there are many of us on the committee who 
in the absence of receiving an AUMF for the purposes of 
understanding the administration's views felt that it is 
Congress' responsibility to move forward and define it.
    Now, no one has worked harder in the last 2 years as the 
chairman of this committee to make this a bipartisan effort, 
not just on that AUMF, but across the spectrum, and I am proud 
to say that working with the ranking member we have virtually 
passed out every major piece of legislation on some of the most 
critical issues on our time from the AUMF, on Syria, and the 
use of chemical weapons, to OAS reform, to North Korea, to 
Iran. On a whole host of issues, they have been bipartisan. 
Virtually every nomination, except, I think, for three of 
hundreds, have largely been on a bipartisan basis. So there is 
no one who has driven harder in this process.
    But there are some principled views here that may not be 
reconcilable. And it starts with when the administration 
itself, and I think you have reiterated what you said earlier 
in your previous visit here, that the President has been clear 
that his policy is that the United States military forces will 
not be deployed to conduct ground combat operations against 
ISIL, that it will be the responsibility of local forces 
because that is what our local partners and allies want, what 
is best for preserving our coalition and, most importantly, 
what is in the best interests of the United States.
    Now, there are those members of the committee and in the 
Congress who have a much different view than that. They would 
have a very robust and open-ended use of combat forces in this 
regard. And if the administration wants that, then it should 
come forth and ask for that. But based upon your testimony and 
based upon what the President wants, or has said that he wants, 
I reject the characterization of my text as something that is 
constraining to the President. My text gives the administration 
the ability to do everything it is doing now and then some.
    The text makes clear that activities on the ground for the 
protection and rescue of members of the U.S. Armed Forces would 
be allowed; that activities on the ground in support of 
intelligence collection and sharing would be allowed; that 
activities on the ground to enable airstrikes by identifying 
appropriate targets would be allowed; that activities on the 
ground that support operational planning would be allowed; and 
that activities on the ground, including advice and assistance 
through forces fighting ISIL in Iraq or Syria, would be 
allowed. Obviously airstrikes would be allowed.
    So everything that the administration is doing and has said 
that it seeks to do and has said, using the President's own 
words when he said, which we incorporated into the AUMF when he 
said--the President articulated five lines of effort in the 
campaign to counter ISIL, including supporting regional 
military partners, stopping the flow of foreign fighters, 
cutting off ISIL's access to financing, addressing urgent 
humanitarian needs, and contesting ISIL's messaging.
    Nothing in this AUMF constrains the administration or the 
President's efforts in any of that regard. Now, indeed 
authorizing U.S. ground troops is a subject of debate here, but 
my text precludes America from being dragged into another 
unlimited and unending war in the Middle East. It does preclude 
the deployment of large-scale combat forces, which was done in 
Iraq, I think, at great cost and far too great a cost in my 
view.
    So unless I hear something differently, how would you have 
us reconcile the view of some members of this committee who 
want combat forces to ultimately enter into Iraq and maybe 
Syria as well, versus the President's own stated view that that 
is not what either we or our allies want?
    Secretary Kerry. Well, Mr. Chairman, first of all, let me 
say I am not characterizing your bill negatively whatsoever. I 
think it is very close to what the President could support, 
with the exception of a few of the things that I mentioned, but 
those are a few. I mean, you have done a good job of pulling 
together a broad authorization. And there is a sort of 
fundamental core that the administration would absolutely 
support. What I mentioned are a few things that we think we 
ought to be able to reconcile with some work amongst ourselves.
    But I think that the President feels, first of all, that 
with respect to when and the timing of this, I am here to work 
with you on behalf of the administration to get this done. And 
the President has said all along he wants an AUMF, and there is 
nothing in the law that requires the administration to be the 
initiator of that. And as I have pointed out to you, there is 
past record of this committee taking the lead in drafting it. 
We are delighted to have your draft, and we think it is a good 
draft.
    But, as I suggested to you, we believe, number one, in 
principle and, number two, in practice in certain situations 
there are limitations on the choices to the President because 
none of us can imagine all of the circumstances that may arise. 
You know, would a hostage attempt have been permitted? What 
happens if chemical weapons fall into the hands of ISIL, or 
about to, and there is an emergency need to prevent that from 
happening because there is a cache that was not reported that 
we discovered through intelligence?
    The Chairman. The response to that would be an open-ended 
authorization that would give the President the wherewithal to 
do any of those and any other things, and, well, not only this 
President who has 2 years on his term, but whoever would be 
elected by the American people as the next President of the 
United States for another year under the authorization as we 
envision it. And the reason we gave 3 years is because the 
President himself has said this is a multiyear campaign. We 
would get past this administration. We would give a year to the 
new President to come forth and talk about how the war should 
be prosecuted.
    Secretary Kerry. But let me suggest this, Mr. Chairman, 
because, again, we want to get a broad-based vote. You said 
some of this may be irreconcilable. You know, I am not sure 
that it ought to be irreconcilable because the President could 
not have been more clear about his policy. No one that I know 
of is in some favor of some open-ended effort, and we have just 
accepted the idea of the limitation of time with some capacity 
for review that we ought to work on together so it is sensible. 
But, you know, it seems to me that there is no way to go 
through all of the hypotheticals, and you simply wind up tying 
the hands----
    The Chairman. Well, it sounds to me like you are making a 
case for a rather open-ended authorization, which if that is 
what the administration wants, it should say it. But, you know, 
I would just simply----
    Secretary Kerry. No, no, no, absolutely----
    The Chairman. I would simply say to the Secretary that, in 
fact, the very elements of what the President described as the 
strategy has been rejected by members, particularly on the 
other side of the aisle, saying they do not believe that that 
is a strategy that can succeed. That is a question of debate, 
but they believe that is not a strategy that can succeed.
    Secretary Kerry. Right.
    The Chairman. And they believe, as I am sure you will hear 
as this unfolds, that there are those members who believe that 
the only way to achieve with this strategy is to have combat 
forces and the President having the wherewithal to issue those. 
So, yes, we cannot imagine every single circumstance, and we 
think the language has made it sufficiently broad for the 
President to engage in everything----
    Secretary Kerry. Well, here's what----
    The Chairman [continuing]. But the use of long-term combat 
troops on the ground, which, of course, is totally different 
than what the President has said.
    Secretary Kerry. What I suggest, Mr. Chairman, because I 
think it is a much better way of trying to resolve this because 
we are not going to be able to exhaust all hypotheticals and 
resolve that sort of philosophic debate, is if we sit down very 
specifically and work through what may be the best balance of 
this that might be able to bring people from both sides to the 
table.
    The Chairman. Well, we would--I am always----
    Secretary Kerry. The important thing is a broad-based----
    The Chairman. We are always open to that, and, in fact, we 
have shared several drafts with the White House chief counsel 
on this issue as we have with the rest of the administration. 
But to be very honest with you, we get relatively little in 
response, so if there is a desire to have language that can 
accomplish the mutual goal, we are certainly willing and open 
to receive it. But in the absence of it--the absence of 
language does not--is not going to create a permanent veto of 
the committee's actions, of the Members of the Senate's 
actions, and the administration needs to know that. But----
    Secretary Kerry. Mr. Chairman, I want you to know 100 
percent, President Obama has no intention of sending combat 
troops in, but he believes, and I believe, and I think all of 
us share the sense that there is a way to come together to work 
through how do we resolve this difference in a way that is not 
open-ended, but I think putting a time limit on it is serious 
statement about the administration----
    The Chairman. Well, you know, there is a famous movie that 
says show me the money. I would say show me the language, and 
maybe we could get there.
    Senator Corker.
    Secretary Kerry. Well, let us work on it. That is the 
point.
    Senator Corker. I find this conversation interesting. I 
would say that I do believe that what the Secretary just said 
is true, and that is that if we sat down, understood what 
authority the President, the White House, Secretary of State is 
seeking, I believe there is a way for us to craft legislation 
that would be bipartisan, but, more importantly, craft 
legislation that the administration supports. I mean, passing 
legislation--passing a bill out of this committee or an 
authorization is one thing. Passing something on the House and 
Senate floor is quite another. And the only way that is going 
to happen is if the administration is firmly behind what we do.
    And, again, I would just say to every member here, I think 
it is harmful to our Nation to begin the process of an 
authorization and not see it through to the end, and I thought 
the last effort harmed us greatly. And so, again, I understand 
the frustration by the chairman. I realize he has tried to have 
witnesses up here. It has not occurred. But I do believe 
sitting down with the Secretary and sitting down with the 
general counsel at the White House as we did last time, I 
believe that we can come up with authorization that passes the 
test for the bulk of the members of this committee and actually 
enacted into law.
    Let me ask this question. Do you believe the administration 
today has the authorities that it needs to carry out the 
operations that it is carrying out?
    Secretary Kerry. Very clearly, yes.
    Senator Corker. So I will say there are some members of 
this committee that believe otherwise, and believe that the 
best way we can be effective in making ourselves relevant is 
just to pass legislation that makes what you are doing legal, 
and somehow that makes us relevant. That is beyond me. I do not 
see how that is the case. It seems to me that part of what is 
missing here is an understanding, so I do not think I am in the 
place that the chairman characterizes many of the folks on our 
side of the aisle.
    What I would like to understand is how we are going to go 
about ensuring that we have an outcome here that is worthy of 
the effort. Again, I go back to what I said in the opening 
comments. We have had multiple efforts since World War II that 
just candidly did not end well. They did not produce the 
outcomes. That is how you made your name in the public world 
was talking about that. And I would just say that for all of us 
to conduct a situation where we pass an AUMF, I think it would 
be good to understand how the administration is going to go 
about it.
    And so, let me ask you this. Is the strategy evolving, yes 
or no? The strategy of how you are going to go about this 
evolving.
    Secretary Kerry. Well----
    Senator Corker. Are you building--are you building on 
successes right now to try to more--are we going to go against 
Assad? Let me just ask you that question since----
    Secretary Kerry [continuing]. Well, let me--look----
    Senator Corker. Do we plan to militarily go against Assad?
    Secretary Kerry. Not at this moment, no.
    Senator Corker. Do we--do you think----
    Secretary Kerry. Can I--let me answer the question a little 
more fully so you understand. When you say do we plan to go 
militarily against Assad, do we, the United States, plan at 
this moment to attack Assad as part of this? No. We are 
asking----
    Senator Corker. Not as part of this.
    Secretary Kerry. We are not asking for--we are asking for 
an ISIL-oriented authorization.
    Senator Corker. Are you going explicitly ask--are you going 
to explicitly ask for that?
    Secretary Kerry. Let me just finish. But we are heavily 
engaged, thanks to you and the passage of the $500 million 
authorization and now the training and equip effort that is--
all the ground work is being laid now, in addition to other 
things that you are aware of, to support those who are engaged 
in the fight against Assad directly. And many of our coalition 
partners are particularly focused on the Assad component of the 
equation. So when I say are we the United States? No, and 
certainly not as part of this authorization, but as part of the 
policy. But let me--let me try to help you here a little bit 
here on this. We----
    Senator Corker. Help me this way. Are you going to ever 
explicitly seek an authorization from Congress?
    Secretary Kerry. We are seeking authorization now with 
respect to----
    Senator Corker. You are--and if you do not receive that 
authorization, will you continue the operation? That is an 
explicit seeking. So are you----
    Secretary Kerry. The authorization for what we are doing 
now in both Iraq and Syria?
    Senator Corker. That is correct.
    Secretary Kerry. Absolutely we will continue it because we 
believe we have full authority under the 2001 AUMF and parts of 
the 2002. But here is where I want to help if I can.
    Senator Corker. Good.
    Secretary Kerry. If Congress passes a new Daesh-specific 
AUMF, we will support the inclusion of language in the new AUMF 
that will clarify that the Daesh-specific AUMF rather than the 
2001 AUMF is the basis for the use of military force. And I 
think that will comfort to a lot of people. Number two, we will 
also support the repeal of the 2002 AUMF as part of an effort 
to clarify that the ISIL-specific AUMF would be the only source 
of legitimacy for the use of military force against Daesh. And, 
therefore, we would live under the confines of what we pass 
here. And I think that is a pretty, you know, clear and 
important addition to this discussion.
    Senator Corker. So, do you plan to send us a draft that 
does these things from which to work off of?
    Secretary Kerry. Well, in all fairness, we think that the 
chairman has a draft, which obviously there are some 
differences of opinion about parts of it. We have a difference 
of opinion about part of it. For instance, there is a component 
which is more of a technical fix which refers to the--includes 
the forces that are included in--you know, associated forces. 
And we believe that the fighting alongside language that has 
been interpreted out of the 2001 AUMF is important to a full 
explanation of how we can fight this effectively. So there are 
technical fixes like that. But the fundamental draft that the 
committee has is a fair starting point, and we propose we work 
from there.
    Senator Corker. So what you are proposing is that the 
administration begin to engage more fully with Congress to 
develop an AUMF using some language that has been drafted, but 
to edit and change that in such a way that you believe more 
fully addresses the issue we are talking about. Is that 
correct?
    Secretary Kerry. I am not proposing, Senator. I am here 
doing it.
    Senator Corker. Okay.
    Secretary Kerry. And we are ready to----
    Senator Corker. And so, what do you think would be the 
appropriate timeframe to work through all of that? I know that 
many of us would like----
    Secretary Kerry. Well, I think over the course of the next 
days. I mean, let us--I do not think it is going to be finished 
by Thursday or Friday, but I think that we could engage in this 
effort over the next days, and as we come back in early 
January, let us----
    Senator Corker. And do you think it would be helpful----
    Secretary Kerry. Believe me, we are anxious to operate 
with--this helps everybody.
    Senator Corker. Yes, I actually----
    Secretary Kerry. This is an important effort for the 
Congress, an important effort for the country----
    Senator Corker. Other than not explicitly asking for an 
authorization, to be candid, I very much appreciate what you 
are saying, and think it is exactly the way we should go about 
it, and I appreciate you coming up here. I know there are 
Members on the other side of the aisle that feel very 
differently about that and feel that we should act this week, 
and I understand that and appreciate it. I plan to conduct 
myself in a way, again, that we do not harden ourselves against 
each other prior to the first of the year when we are a little 
more closer to the line.
    Secretary Kerry. Senator, if we could do it in the next 
days, we are not trying to not do it.
    Senator Corker. Well, I mean, I think most of us would like 
to hear from the Pentagon. I mean, you are talking about boots 
on the ground, and I think that would be a helpful thing to 
hear about. And I think having some intelligence briefings, and 
typically, again, we would sit down with the general counsel 
from the White House and the State Department to work through 
the language. But I appreciate you coming here.
    Secretary Kerry. Thank you. Thank you, Senator.
    Senator Corker. And I understand where we are, and 
hopefully we will move toward a real bipartisan authorization 
that most of us can get behind.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you. Secretary Kerry, thank you for 
the work you do. You know, I believe President Obama has the 
authority to go after ISIL because I voted to give any 
President the authority to go after the outgrowth of al-Qaeda, 
so I feel he has got it. But having said that, this is a threat 
to humanity that I do not think humankind has seen before, so I 
am assuming you understand why many of us want to go on record 
on this.
    As a former Senator, can you just understand that, not 
getting into the details, which I personally think our 
chairman, working specifically with all of us here, and 
particularly Senator Kaine, has worked so hard to get something 
that I think reflects exactly what the President said he 
wanted. But I will not get into the details with you because, 
you know what, that is our job to vote. Now, it is your job to 
do something else, and you do it well, but we have got to do 
our job.
    So I just say from the standpoint of a former Senator, you 
understand then why so many of us would like to go on record on 
this threat. Is that correct?
    Secretary Kerry. Absolutely, Senator. I have total respect 
for it, and I understand it, and I welcome it.
    Senator Boxer. Right.
    Secretary Kerry. The President does, too. I mean, again, I 
want to----
    Senator Boxer. Because let me be clear----
    Secretary Kerry. The President wants an AUMF.
    Senator Boxer. Well, let me be clear. He may have it from a 
majority of this committee today, and I am hoping it can be 
bipartisan. The last time he got it was more of a bipartisan 
vote, and it had to do with Syria, and this committee acted 
with our chairman and ranking member. And we set forward an 
AUMF that had limitations on it, and it had a tremendous 
impact. We did not wait to talk and talk and talk because we 
knew that Assad had these chemical weapons, and as a result of 
our vote, even without it going to the floor--I say to my 
friend, Senator Corker, even without it going to the floor, it 
had a salutary effect on what happened.
    So I want to talk to you about an amazing hearing I had 
with Senator Paul this morning about ISIL, about their 
brutality and their abuses specifically. We had an amazing 
panel, including a woman who is the only Yazidi Member of 
Parliament, talk to us about what it is like. And I want to 
place in the record an article that appeared today in the Daily 
Beast, and it is taken from sort of a question and answer--it 
is unbelievable--that answers questions of the recruits as they 
come into ISIL, or Daesh, or whatever we want to call them. And 
I will defer to you eventually on what we settle on. But can I 
put this in the record?
    The Chairman. Without objection.
    Senator Boxer. Okay. I am going to give you a sample. These 
questions are disgusting, so I just want people to not to be 
upset with me, but I think we cannot, you know, not talk about 
this. So here is one question: ``Can all unbelieving women be 
taken captive?'' Answer: ``There is no dispute among the 
scholars that it is permissible to capture unbelieving women.'' 
Question: ``Is it permissible to have intercourse with a female 
captive?'' Answer: ``It is permissible to have sexual 
intercourse with a female captive.'' And then they quote Allah 
because if you do you are free from blame. Question five: ``Is 
it permissible to have intercourse with a female captive 
immediately after taking possession [of her]?'' Answer: ``If 
she is a virgin, he [her master]''--her master--``can have 
intercourse with her immediately after taking possession of 
her. However, if she is not, her uterus must be purified 
[first].''
    This is disgusting garbage. And I will tell you, I 
understand your desire to put this off, to control it. I need 
to be on record because of what I am learning. Then they say 
their ``knife will continue the strike the necks of 
Americans.'' They will ``quench their thirst for American 
blood.'' This language is evil. It is vicious. And as Assistant 
Secretary Tom Malinowski from your administration, said today, 
when it comes to being terrorists, they are in a league of 
their own. So, and I know there are--Senator Johnson was there. 
He asked really good questions, and basically he was making a 
good point. He said, look, there are so many other groups out 
there. So he is concerned, and he will speak for himself. But 
my point is, and I made the point today, I was a kid growing up 
in the inner city, and if you got the biggest bully on the 
block, that helped a lot with the rest of the bullies.
    So I just want to make a point to you. I have read what our 
chairman has written. There is a lot of room here for 
flexibility. Please look at it, Mr. Secretary. I think it is 
very important.
    I did not vote to go to war in Iraq, and I treasure the 
fact that I voted no. This cannot be boots on the ground, 
another invasion, and the rest. It cannot be. And if it is, I 
will not vote for it. But I think what the President is doing, 
which is to work with others on the ground, particularly, for 
example, the Kurds, and hopefully we can do it with the Syrian 
moderates. I know there is a lot of debate about whether there 
are any moderates left. Some say there are, some say there are 
not. But I think that we are on the right track here.
    And I am sad, frankly, that we have not been able to work 
with you to craft something together, but I understand you want 
to do more work. You want to bring in more parties. I have no 
problem with that. But I just want to say to you, I hope you 
understand the passion with which everyone that I have talked 
to views this question. And I hope the administration will not 
take it as some kind of act of--an unconstitutional act if we 
go ahead today without you, because if you read the 
Constitution, it is clear what our responsibilities are.
    And I just hope you will take it if we do pass this, and I 
hope we do, to codify exactly what the President said, that 
instead of being concerned about it, as I think you are a 
little concerned about it. Hopefully you can embrace it, and 
that you can work with us to make it better. But I do not think 
we should put this off because I am done--I have got to go on 
record. My constituents expect me to go on record.
    The Chairman. Senator Risch.
    Senator Risch. John--Mr. Secretary, thank you for coming 
today. We do truly appreciate you coming here to talk to us 
about this. We have been anxious to do it for some time. So 
that the record is clear here, you are here in front of us 
today on behalf of the President of the United States asking 
for an AUMF, is that correct?
    Secretary Kerry. Correct.
    Senator Risch. Okay. Is there a reason this has taken so 
long?
    Secretary Kerry. Well, we asked for an AUMF last time I was 
here in September, and we are prepared to work and have an 
AUMF.
    Senator Risch. But this is a different situation now than 
you were here in September.
    Secretary Kerry. I know, but, you know, Senator, I think 
you have got to look at what has been going on here. Mosul fell 
6 months ago tomorrow. And the first thing the President did, 
and, in fact, we started reacting in January, we took our ISR 
flights up from 1 a day--from 1 a month to 60 a day way back. 
We started pouring in additional supplies, and we realized, you 
know, that we had a different kind of threat. No one quite 
anticipated the fold that took place in Mosul and so forth and 
the march toward Baghdad, but since then that has been stopped 
in its tracks, pushed back.
    And the point I am making is that the first step was to get 
a government in Iraq that you could work with.
    Senator Risch. But I guess----
    Secretary Kerry. And so there was a period of months there, 
and then we got into September, and since then we have said we 
want an AUMF, and we are prepared to work to do it.
    Senator Risch. Well, you know, this is the first time 
anybody has come in front of this committee to ask for an AUMF. 
A letter from the President would have been responded to, and 
certainly if someone like yourself would have come up here and 
said, look, this is what we want to do. But I guess what 
aggravates me about this is, you know, our enemies have got to 
be looking at this and saying, look at what is going on over 
there, because this should not be--this is not a Republican-
Democrat thing. This really is not a first branch versus the 
second branch thing, although certainly there are some 
undertones of that.
    But we need to work together on this thing. I am with the 
chairman on, I guess, feeling aggravated that this thing is 
playing out like this. We ought to all be pulling the wagon 
together on this. This is a serious American problem, not a 
Congress versus President problem, not a Republican-Democrat 
problem. So you can understand our frustration on this, and 
admittedly we do have a difference in what the roles are of 
each party.
    The Founding Fathers were very wise when they put in the 
hands of the first branch of government the power to declare 
war, and not give it to the second branch, which is the 
military branch--one of their responsibilities is military. So 
we take this seriously, and I think the American people take 
this seriously. It has certainly served us very well over the 
years. But let me ask this. If Senator Menendez's passes, if 
his resolution passes, will the President sign that?
    Secretary Kerry. Well, I have not asked the President 
whether he will sign it or not because the President is hopeful 
that since we generally agree with it, we can work through the 
differences that do exist. And the President wants to preserve 
the flexibility that he believes we need, and that is within 
the prerogative of the President. But he is prepared to work 
with you to try to see--we are all prepared to work to try to 
arrive at an understanding of how we can do that.
    Senator Risch. And obviously we have--we have some 
disagreements in that regard since he--if he believes that the 
2001 resolution gives him the authority to do what he is doing 
now, we have a basic disagreement on that, and that, again, is 
why I think the Founding Fathers gave us, the first branch of 
government, the authority to do this. And I guess the 
question--what would be your opinion as to whether or not the 
President would sign Senator Menendez's resolution if we pass 
this this week?
    Secretary Kerry. Well, I am not going to, at this point, 
suggest that I will share with you the advice I will give the 
President with respect to whether he should veto it or not veto 
it or what his choices might be if it came to the President. I 
really think that we are missing the point, though, Senator 
Risch, if that is sort of the road we go. From the moment I 
opened my mouth here today I have said to you, and I meant this 
as does the President, we do not want a bare minimum majority 
here, and I do not think you want one that way. We need to have 
a resounding vote in which we are all agreed that we have got 
the right mix here, and we ought to all be committed to working 
toward that. I am.
    This should not be a, you know, a partisan vote or even an 
ideologically divided one. I am convinced we can get there. I 
mean, generally speaking, the chairman's proposal, as I say, 
has covered a lot of the bases, but we think the President does 
need some flexibility that is not reflected in it. I think he 
is owed that constitutionally, though we are not here to make 
the constitutional argument because we do not want to get 
trapped into that.
    We want to try to get into a place where we find a 
reasonable way to have the level of flexibility necessary that 
meets the needs of everybody to know you are not voting for 
something open-ended, you are not creating a slip--you know, a 
loophole for the President to do something you do not want him 
to do. I do not think anybody wants to get into a long-term 
ground operation here, but we also do not want to hamstring the 
generals and the commanders in the field and the President who 
is the Commander in Chief from their ability to be able to make 
some decision they need to make. And that does not need to take 
you into a long-standing operation.
    Senator Risch. Let me ask you this. Are you concerned at 
all about the mechanics of this? I mean, it is highly unlikely 
we are going to be able to pass an AUMF through both houses 
during this week. And so, then we are gone until the first of 
the year. What message do that--are you concerned about the 
message that that sends?
    Secretary Kerry. You know----
    Senator Risch. Because I am with you. I mean, everybody 
needs to get behind this in one fashion or another and get to 
express their opinions on it. But here we are now where the 
request is before us, but it is probably not going to get done. 
How does that affect things, in your opinion?
    Secretary Kerry. To be truthful with you, Senator, I do not 
believe that that is going to be read as anything except what 
it is, which is a legitimate process and discussion to get the 
right end result, and I do not think anybody has any doubt that 
we are going to get the end result. The fact is that we are 
going to continue this operation because the President and the 
administration are absolutely convinced, and I respect your 
opinion, we have the authority. There is no question about it 
because the 2001 resolution addressed itself to al-Qaeda, the 
Taliban, and associated forces. The courts have actually 
already decided this in the context of our habeas decisions 
that have been made. So all three branches of government are 
actually in agreement fundamentally that the 2001 AUMF applies 
to al-Qaeda.
    ISIL, Daesh, you know, again, I prefer Daesh because I know 
that the Arab world has a real meaning with that, and I think 
we ought to respect that. But the fact is that they fully 
understand that we are on the track we are on, and in my 
judgment, everybody knows that this group merely changed its 
name. But it was al-Qaeda in Iraq, and it has been al-Qaeda in 
Iraq from 2004, 2005, and on, and everything it has done is al-
Qaeda in Iraq. And there is no question that we authorized this 
government to go after al-Qaeda wherever they were. And we are 
doing that in Yemen. We are doing that in Iraq. We are doing 
that now in Syria, the Khorasan group. Those are all part of 
the same, and that authorization fits.
    But we agree--we have--we have an argument--I mean, there 
is a nonargument here. We agree with you that it is better to 
have a new AUMF, and I have come to you and said we will 
absolutely scuttle the--you know, we would like to refine the 
2001 for the period of time we need it, but we will show that 
this particular authorization is not based on 2001 any longer. 
It is based on what we are doing here. And that is, I think, a 
major statement frankly.
    Senator Risch. My time is up. Thank you, Mr. Chairman.
    The Chairman. I would just remind all colleagues that 
amendments are in order, so if there are those who believe 
there is a better way to perfect the present text, we certainly 
can take it up, and consider it, and debate it, and vote on it.
    Senator Cardin.
    Senator Cardin. Mr. Secretary, thank you very much. I think 
your testimony has been extremely helpful, and I thank you for 
that. There is much more in agreement here than in 
disagreement. I think there is total agreement that Daesh or 
ISIL is a barbaric terrorist organization, that we are right in 
our campaign against them, and that Congress and administration 
are on the same pages in regards to the legitimate use of force 
to stop this evil, and to stop its funding, and to stop its 
ability to cause instability in the region. So we are in 
agreement on that.
    We are also in agreement that Congress and the 
administration need to work together. We are always stronger 
when we speak with a united voice. We are now in agreement that 
we need an authorization for the use of military force that 
will allow you to continue to conduct the campaign the 
President has stated that he is doing. I think there is 
agreement on that. There is agreement on the 2001 and 2002 
authorizations--that 2002 needs to be repealed, and 2001 needs 
to be modified as it relates to Daesh. We are in agreement on 
that. We are also in agreement with the administration that it 
should be a time-limited authorization. So I really do think 
there is a great deal that we agree on, and I thank you. Your 
testimony has helped us.
    But understand that there are some fundamental differences, 
and I really do think those fundamental differences rest with 
the separation of powers and the branches of government. I do 
believe in the War Powers Act. I do believe that Congress has 
the constitutional responsibility to declare war and to 
authorize the use of our military forces. I do believe that, 
and I do believe there have been too many months that have gone 
by and Congress has a responsibility to weigh in.
    So here is, I guess, the point I want to make, and I would 
love to have your response. The reason why I am so concerned 
about the language that we put in this authorization being too 
broad is the explanation you have given that the 2001 
authorization clearly authorizes the use of force against 
Daesh. Let me just read the authorization. I was part of 
Congress at the time, as several members of this panel were. 
``The President is authorized to use all necessary and 
appropriate force against those nations, organizations, or 
persons he determines planned, authorized, committed, or aided 
the terrorist attacks that occurred on September 11, 2001, or 
harbored such organizations or persons in order to prevent any 
further attacks and acts of international terrorism against the 
United States by such nations, organizations, or persons.''
    I go through reading that because I think back that if we 
would have thought after 13 years and after so much of our 
military battles that were taking place in Afghanistan and 
Iraq, that this authorization could be used today in the way 
that it is being used, I think Congress would have drafted 
different authorization in 2001. So I think it is our 
responsibility to make sure that we draft this authorization 
appropriately, recognizing that the President has article 2 
powers to deal with the unexpected uncertainties.
    If we are going to give you authority to deal with 
everything we do not know about, then we might as well just 
repeal the War Powers Act and change the Constitution and give 
the administration all this power. You can always come back to 
Congress and seek additional authorization. So I guess I would 
urge you and would like to get your response as a former member 
of this committee, former chairman of this committee. Yes, we 
want to work together. We agree on what we are trying to 
accomplish, but you must recognize the responsibility that we 
have in this Congress in the authorizations that we pass, and 
help us draft an authorization that allows you to do what you 
need to do. But it will not cover every contingency in the 
world because that why we meet and we are here, and we can 
modify authorizations.
    So it would be extremely helpful if you could help us with 
that language--particularly in the two areas that seems like we 
are in disagreement on geography and contingencies on the use 
of forces. And I would hope that you would give us further 
clarification on those two points so that we can be together 
and speak with a united voice.
    Secretary Kerry. Well, Senator, I appreciate and respect 
your position and your long history of clarity on these kinds 
of issues in the Senate and the work we did together on these 
things. But I do disagree with you with respect, and 
respectfully, that the 2001 AUMF does not authorize this, and 
let me just tell you why.
    I think you know that what happened started in 2001; 2002 
you kind of get going with the program; 2002 and 2004 it was 
continuing. We had, as you know, a Presidential race in 2004 
that had a certain debate about this issue. And the fact is 
that it was in 2004 specifically that ISIL came into our focus 
and was targeted as what it was, and at that time, Osama bin 
Laden publicly endorsed the group as the al-Qaeda official 
affiliate in Iraq. And so, we--you know, had a formal 
affiliation with al-Qaeda, and that is when we began to take it 
on. We did take it on. Our troops in Iraq took it on. We were 
fighting it all of that time. It is a little late to come back 
and say we did not have the authorization to fight it in 2014 
when a whole bunch of folks died fighting it and we put our 
efforts into it.
    Now, they changed their name. Are we going to suggest that 
any group out there has the right to veto your authorization of 
use of force because they changed their name? That would be 
ridiculous. It would give terrorist organizations the right to 
get out from under just by changing a name. This is the same 
group. These are the same people with the stamp and imprimatur 
of support by Osama bin Laden, and we have been fighting them 
since 2004.
    So I do not think there is a question about 2001, but we 
are actually wasting our time to go back and fight about 2001. 
Why do I say that? Because, number one, we agree we have to 
refine it. Number two, we agree we need an AUMF. Number three, 
we want an AUMF that becomes the exclusive vehicle of authority 
not relying on----
    Senator Cardin. Yes, I said we agree on that, but where we 
need help are the two areas where we disagree. I do not want 
to----
    Secretary Kerry. On geographic location you said.
    Senator Cardin. Well, there is no geographic limitation--
only one area. Thanks for correcting me. It is just really one 
area then it seems like.
    Secretary Kerry. Right.
    Senator Cardin. I am a little bit confused then. If that is 
the only area we are in disagreement----
    Secretary Kerry. Well, there are two areas that I have 
singled out. One is in the definition regarding associated 
forces. We believe that that requires you to make a definition 
of ideological association or other kind of affiliation, and we 
believe that gets very complicated, certainly for a commander 
in the field or for an instant decision about retaliation or so 
forth. So we want something that encompasses the notion of 
fighting alongside with, which is the language that has been 
used in the interpretation of the 2001 AUMF. And that is what 
we have applied today in our application of force. That is not 
there. So we wanted the clarity with respect to that, but that 
is more of a technical fix.
    The biggest sort of challenge here is what is the 
appropriate level of restraint on the President of the United 
States as Commander in Chief, and Congress' micromanaging of 
what the military can do and cannot do in the context of its 
fights. That is all. And none of that should challenge the 
fundamental prohibition the President has placed on himself 
that he does not plan to send combat forces in to be part of 
this battle against Daesh. So I think there is a way here to 
protect you with some kind of notification perhaps, a 
requirement.
    Senator Cardin. Just let me point out for the record, a 3-
year authorization goes into the next administration, so----
    Secretary Kerry. And we thought that was appropriate.
    Senator Cardin. And we agree, but it is important to be 
very clear about the authorization.
    Secretary Kerry. And we thought it was appropriate that it 
gave whoever is the next President a year to be able to get in 
place, get all their people in place, make the judgments 
necessary, but then have some kind of trigger that requires it 
to be, you know, evaluated in some way. I mean, we are yet to 
sort of finalize all that. I do not want to do it here now, but 
let us work on precisely what that ought to be, how it works 
for both of us so you have a sense that you have got what you 
need, which is a restraint on the open-endedness, and the 
President has what he needs is the flexibility to be able to do 
this properly. And that is a great constitutional balance I 
think.
    The Chairman. Just for the record, and I think Senator 
Cardin recognizes this, but since there are others who will be 
reporting and many who are listening, we have no geographic 
limitation in the AUMF that we have written. So that, of 
course, is not an issue.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman. Thank you for being 
here today, Mr. Secretary. At the outset let me say that I have 
shared your concern about the release of the CIA report today 
that was put out by the Senate Intelligence Committee, and I 
would hope, and I am sure, that the State Department is taking 
all the appropriate measures to safeguard the security of our 
personnel in our facilities around the world.
    Let me now pivot to the subject of today's hearing. Today 
you have outlined a pretty clear objective, which I understand 
that it is to degrade and destroy ISIL and all of the groups 
that are fighting alongside ISIL. You have also outlined the 
kind of authorization you would seek, although your point is 
you do not believe that you require authorization, that you 
have it existing. You think we act stronger when we have that 
authorization, and I agree with that point.
    You have outlined what that authorization should have it: 
no geographic limits, which two of the proposals here do not, 
maybe all three; no intention to use ground troops, but you do 
not want it ruled out. You agree that at a minimum you do not 
want to telegraph the limits that we have. And third is, you do 
not--you do not--well, you are open to a 3-year time 
constraint. And last, but not least, that it is important that 
the definition of who the target is be broad enough to 
encompass affiliated groups or groups fighting alongside ISIL, 
which I think is critical because of the emergence, for 
example, of an ISIL associated group in Libya now that is 
operating in a completely ungoverned space. They do not have 
Assad to fight. There is no one to fight there. And there is 
the potential for the emergence of other such groups in North 
Africa, not to mention the potential for an alliance with the 
Pakistani Taliban, or the Afghanistan Taliban, or Haqqani 
network, or any other groups that are in the area.
    So here is my question. With such an objective as you have 
defined today and such a clear idea of what the authorization 
should look like, I do not understand why the administration 
has not come forward and presented that as other 
administrations have done in the past at least as a starting 
point for this committee to debate, because what happens in the 
absence of that language is what we have here now--three 
proposals on behalf of Congress that attempt to micromanage 
military tactics. And I oppose all three for that purpose.
    That is not Congress' role to micromanage military tactics. 
Congress' role is approve or disapprove of the use of force or 
to fund or not fund if you do not disagree with it. And the 
other problem I have with it is that it clearly telegraphs to 
ISIL, to our enemies, what we will not or will do, where we 
will do it or where we will not do it, and how long we are 
going to do it for, which I think also takes a lot of the 
advantage away from our engagement.
    But I blame all of this on the lack of Presidential 
direction and Presidential leadership. I do not understand why, 
with such a clear idea about what an authorization should 
contain, that has not been presented to this committee as far 
back as September. And here is the other thing that is really 
problematic. This is a complicated crisis or a complicated 
conflict. As you have talked about repeatedly today, it 
involves a coalition, but this coalition includes people that 
want us to target Assad. Their participation in the coalition 
is partially because they think it will extend to getting rid 
of Assad. How does that fit into this equation?
    Part of our plan here is to work alongside of moderate 
rebel elements, but these rebel elements are being bombed by 
Assad and being attacked by Jabhat al-Nusra, and they may not 
be around for us to arm and train if they continue to take this 
beating. How does that fit into this equation? What about the 
Shia militias? We heard testimony today that these Shia militia 
are going into non-ISIL communities and attacking Sunnis, 
burning down their homes, wiping out their neighborhoods. How 
does that figure into all of this and into Iran's influence 
there?
    And last, but not least, the Kurds and the role they have 
played, which, by the way, we heard testimony today in Senator 
Boxer's subcommittee about the role the Kurds have played in 
providing a safe haven to the Yazidis, and to the Christians, 
and to other oppressed groups, and they have also been highly 
effective fighters. All of these complex pieces, and the 
administration has failed to put together a comprehensive 
strategy that we can understand about how it all fits together. 
And for the life of me, I do not understand why with such a 
clear idea of what the authorization should look like you do 
not have anyone over there that could type that up real quick 
and send it over here so we can begin a debate and then amend 
or work on it.
    I think this committee seeks that sort of Presidential 
leadership on a matter of this magnitude. Certainly previous 
administrations have drafted such language. There is nothing. 
And in that vacuum steps in all these proposals because the 
members of this committee are frustrated at the lack of 
direction. So I just do not understand when would we see 
language. Does the White House intend to draft something up and 
send it to us as a starting point for the sort of discussion 
that you seek?
    Secretary Kerry. Well, Senator, I was around here long 
enough to know that even if the President sent up some 
language, there would be just as many bills and just as much 
debate on what he sent up. So let us not kid each other, I 
mean, seriously. It is the same debate one way or the other. I 
mean, if you want to sit there and say, well, the President did 
not show leadership, the President could say, well, the 
committee could have begun, drafted it 3 months ago or 2 months 
ago. I mean, it could go both ways. Let us not get trapped in 
that.
    Senator Rubio. But the President is the Commander in Chief.
    Secretary Kerry. Yes, he is, and he is doing what he is 
supposed to do, which is putting together a coalition and 
beginning to win the fight.
    Senator Rubio. But if he wants the authority to win the 
fight, he has got to tell us what the fight looks like.
    Secretary Kerry. Because let me clarify. I made a statement 
before about, you know, the sole basis that we would make this. 
What we would make it is the authoritarian current state-of-
the-art basis, but as I have also said to you, the President 
does not need that to have the authority to do what he is doing 
because he believes, and I believe, and I think constitutional 
scholars would tell you, he has the authority constitutionally, 
and he has the authority with respect to the 2001 AUMF, as I 
have shown you.
    But that aside, he is going further to try to provide the 
precise clarity that you are looking for, and saying that he 
will put language in here that makes it clear that the AUMF, as 
passed, will be the designated authority with respect to what 
we are doing with respect to Daesh.
    Senator Rubio. Well, where is the language?
    Secretary Kerry. Well, we have said to you very--I think I 
have said two or three times today that we think the Senator--
the chairman, the Senator from New Jersey has made a strong 
proposal. I have not come up here and attacked provision after 
provision after provision. I have said to you we have a couple 
of differences in it. They are not incidental. It obviously an 
important difference this question of what are the limitations, 
and it is fundamental between the two sides of this dais, I 
think.
    What we are suggesting is we try to work that through in a 
way that balances it adequately for both sides so we could get 
the kind of vote that I think could be important. This vote 
could, in fact, with the proper effort, become the preliminary 
down payment on what happens subsequently. That would be a good 
outcome if it were possible.
    So my respectful suggestion is in answer to your several 
comments about the strategy, et cetera, the President has a 
strategy. General Allen is leading that effort for our 
coalition in terms of the diplomacy. And GEN Lloyd Austin and 
CENTCOM are doing an extraordinary job with respect to the 
military component. But there are other components: the foreign 
fighters, the humanitarian, the de-legitimization of ISIL with 
respect to their religious claims, the financing which is being 
shut down. There are a whole series of broad-based efforts that 
are underway and in place today.
    Senator Rubio. I know my time has expired. Just for clarity 
purpose, so the administration's position is that the AUMF they 
would like to see is the chairman's language with some 
amendment.
    Secretary Kerry. With some changes, that is correct. With 
some efforts we work on hopefully together to try to work this 
through.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary, for being here today and for all of your efforts 
on behalf of this country.
    Much of our discussion this afternoon has been around the 
authority of Congress versus the authority of the President. 
But I would suggest that this debate is important for another 
reason because I think this debate is also about the right of 
the American people, the people that we all represent, to know 
what is entailed in this country's use of military force 
against ISIL, including the scope and duration of that. And one 
of the things that has been said here this afternoon is that we 
weaken our country rather than strengthen it when we begin a 
process, like the discussion we are having today, that we know 
cannot be concluded.
    I would actually argue the opposite, and that is that this 
debate strengthens our resolve in this country, and that our 
enemies looking at the debate should not be confused and assume 
that this is weakness that we are having these debates, but 
rather it is one of the things that makes this country so 
strong, our ability to debate issues of war and peace. It is 
part of what our democracy is about.
    You said, and I think several of us have agreed with this, 
that if the committee worked with the White House and 
understood what the administration wants, that we could 
probably craft language with some back and forth that we could 
all agree to, or at least the majority of the committee--a 
bipartisan majority could agree to. I certainly agree with 
that. And we have talked about a process in the committee that 
would have this hearing today, have some time this week to 
actually discuss it among ourselves. And we were hoping to work 
with some members of the administration in a classified setting 
to hear more about what is currently underway with respect to 
the war against ISIL.
    So I guess I would say to you if we are all committed to 
having that kind of discussion about what should go in the 
AUMF, should we assume that there are members from the 
Department of Defense and from the intelligence communities who 
could also be part of working with us on that kind of a back 
and forth? And is that something that we could get set, because 
my understanding is that one of the challenges has been a 
commitment from folks to actually come and answer some of the 
questions and the concerns that this committee has had.
    Secretary Kerry. I cannot imagine why that cannot be worked 
out. I mean, I do not know what the schedules are. I know 
Secretary Hagel was not available because he was overseas, I 
think in Iraq and elsewhere. So that availability obviously was 
challenged. But I am confident--I cannot imagine that--you 
know, as I have said, the administration is prepared to work 
with you, and we will work out the schedules and see what is 
doable.
    Senator Shaheen. Well, thank you. I think that would be 
very helpful as we are talking about trying to get something 
that can be garner bipartisan support.
    Secretary Kerry. And I understand the desire obviously to 
hear from the intel and hear from the, you know, DOD.
    Senator Shaheen. Well, I appreciate that. I think it is 
very important for us to have this debate, for the committee to 
act and to work with the administration and see if we can find 
acceptable language. But to do it in a way that is not open-
ended so that we are not, as the committee has said in the 
past, waiting indefinitely for language that may never come 
from this administration.
    So let me ask some specific questions relative to what is 
going on with the current operations of our fight against ISIL, 
recognizing that you may or may not be able to answer some of 
these questions. But can you talk about the moderate opposition 
at this point relative to the Syrian regime and the extremists? 
And there have been a number of reports that that opposition 
has--is in the process of totally collapsing. Is there any 
intention to expedite the training and assistance efforts to 
the moderate Syrian opposition groups?
    Secretary Kerry. The answer is, ``Yes,'' there is a great 
deal of effort to try to expedite at this point in time. The 
opposition in the south is actually doing fairly well right 
now, and it is a problem for the Assad regime. But a lot of the 
fight that is so critical is in the north, and there Aleppo is 
a challenge, and it is one that we are very, very well aware 
of. We are working with the Turks right now, having long 
discussions in order to work through a number of different 
thoughts about how best to deal with that. There is ISIL up 
there, there is al-Nusra up there, Jabhat al-Nusra, and the 
opposition, and then you have the regime.
    And so, the President is considering a number of different 
options with respect to the north, but we are working through 
those details. General Allen was over there recently meeting 
with the Turks at some length of discussion about trying to 
focus in and narrow down who could do what how and so forth. 
But it is all on a fast track because everybody understands the 
opposition there is challenged.
    Regrettably, a couple of different opposition groups, and 
there are a number of different opposition groups, did not fare 
well in their battles, and some--one or two of them actually 
sort of folded into al-Nusra, which is disturbing and something 
that folks are looking at carefully. But by and large they have 
survived. They are holding on. They have been the entity that 
has been fighting for almost four years now, and we are 
increasingly doing a number of things to try to make a 
difference, some of which we cannot lay out here in this 
committee in open session, some of which are a part of the 
training effort that we want to get underway.
    And happily, the Turkish base for that training and the 
Jordanian base for that training are complete and ready, and we 
are starting to get, you know, that moving. We still have to 
get more going with respect to--Kuwait is only in the beginning 
stages, and the Saudi training component needs additional 
infrastructure work, et cetera, in order to be ready.
    But believe me it is very, very important to get a number 
of things in place as rapidly as possible because while they 
are doing well in the south, the north is a challenge.
    Senator Shaheen. Thank you. My time has expired.
    The Chairman. Before I turn to Senator Johnson, I do not 
want there to be any impression here by members of the 
committee that we have not tried to engage with the 
administration and solicit and elicit both opinions and 
witnesses. To the Secretary's credit, he is the one person that 
has been here on several occasions, and we appreciate that, and 
I am convinced that as part of his history here, he recognizes 
the importance of that.
    And he has made himself available, although I do not feel 
that he has the wherewithal to talk about every dimension of 
this, no matter how well versed he is or how well he has tried. 
There are intelligence questions here, there are military 
questions here, but this is what we have.
    Now, for timeline purposes, let us understand that the 
first War Powers notification came to us in June, in June. And 
then we had the Secretary appear here on September 17 to 
testify on the anti-ISIL strategy. Then on September 23, we had 
War Powers notification, making it very clear that this would 
be a multiyear effort, September 23. And then on November 5, 
the President actually went before Congress and requested 
authorization for military operations against ISIL.
    So going back to that period of time, this committee, and 
certainly the Chair, has engaged the administration going back 
to October when staff had conversations, when we met with the 
White House counsel to go over a draft of language. And in 
fairness, we just did not get specificity of responses. So when 
we talk about ``let us work together,'' there has been an 
effort to try to achieve exactly that.
    I do not want anybody here to think that there has not been 
an effort or for the public to think, wow, it seems that they 
are doing Rambo here by themselves. There has been an effort 
here. And the fact is that requests were made for this hearing, 
as well as for classified hearings, for others beyond the 
Secretary to be able to further inform. Those were not--for 
whatever reasons, logistics, whatever, travel, were not being 
able to be pursued. So based on the Senator's questions, I do 
not want anybody to think here that that effort has not been 
made.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Mr. Secretary, I 
just want to pick up a little bit on what the chairman was 
talking about, the efforts this committee has made. I remember 
our hearing on May 21 where we had the counsel from the 
Department of Defense and the counsel from the Department of 
State. We talked about an authorization for use of military 
force, and at that point the administration was saying they 
wanted to engage with the Congress. And then later on, I think 
July 23, a number of us did go down to the White House, to the 
counsel's office, and we discussed that authorization.
    I recall is two things from that meeting: that the White 
House counsel was finding a somewhat tenuous connection to 
previous authorizations, and so they were looking and 
interested in having a new authorization. I think I left that 
meeting with the impression that the ball was in the 
administration's court to draft something, and that is my 
question.
    After all that time, why? Just simply why has the 
administration not sent us a draft proposal, because it has 
really been pretty much the history of previous Presidents. I 
would think that would make sense that the Commander in Chief 
would like to lay on the table an authorization that he would 
want to pursue with the actions that he believes are necessary 
to keep this Nation safe. Why has the President not given us 
the draft? It would have cleared up so much confusion. So I 
just simply ask--answer the question, why?
    Secretary Kerry. Well, as I have said, I think we have a 
pretty good draft.
    Senator Johnson. No. Why has the President not sent a 
draft? Why did he not write it up himself, or you, or his 
Secretary of Defense?
    Secretary Kerry. It is my understanding there have been 
about seven meetings, and I do not know. I was not present in 
any of those meetings, but the seven meetings have discussed 
the draft. The chairman himself said they went and talked about 
the draft. There is not requirement for the President to send 
it up.
    Senator Johnson. But would it not make it a lot--okay.
    Secretary Kerry. I do not know if it, but as I said earlier 
to Senator Rubio, would it have made life easier? Would it have 
changed the debate? It is the same debate. You have language in 
front of us which we are now working with, and the President 
has said that by and large it is pretty good. This is not the 
first time that the committee has exerted leadership to put 
language together that the President has asked for and 
welcomed.
    Senator Johnson. Again, I will not get an answer. That is 
fine. The reason I think we need to review past authorizations 
is because I think there are legitimate differences to whether 
or not, for example, the 2001 authorization really does apply 
right now. Let me read why. It is all past tense. It is talking 
about nations, organizations, persons he determined, planned, 
authorized, committed, or harbored. Those are all past tense. 
There is nothing in here talking about associated forces. It is 
kind of describing them.
    But there is legitimate concern about whether or not that 
actually does authorize its current use. And, again, my 
understanding in the White House, they seemed also to be 
grappling with the tenuous connection between the current use 
of military force and that authorization. But I want to go back 
a little bit further because I think exploring this language 
and exploring the history makes sense.
    In World War I and World War II, we actually had a total of 
two declarations of war in World War I and six in World War II, 
the authorizations were pretty open-ended. They gave the 
President the authority he needed to defeat the enemy. In World 
War I, it was a declaration of war against Germany, and this is 
what the authorization said: ``to bring the conflict to a 
successful termination.'' And even in the 2001 authorizations, 
the President was authorized to use ``all necessary and 
appropriate force.'' That is what past Presidents wanted in 
terms of authorization, the authority to be Commander in Chief 
and to accomplish the goal.
    Here is my question. Has President Obama deviated from the 
goal he stated to degrade and ultimately defeat ISIS?
    Secretary Kerry. Not in the least.
    Senator Johnson. What is the goal of this process then? I 
mean, is it to have a bipartisan authorization? Is it to have 
members be able to put themselves on the record, or is it to 
produce an authorization that gives the President the 
congressional authority to actually accomplish that goal?
    Secretary Kerry. Well, it is obvious. Senator, the purpose 
of the AUMF is to authorize in its new and modern context, its 
state-of-the-art context, the challenge that we now face with a 
very different kind of extended threat, if you will. And I 
think the discomfort that has been exhibited on both sides of 
the aisle with the reliance on 2001, which we believe 
absolutely withstands any judicial scrutiny whatsoever and is 
legitimate. But the discomfort that exists should be clarified. 
And the American people, the President believes, are owed a 
2014 commitment, not a 2001 commitment.
    Senator Johnson. I completely agree, and the other thing 
the American people are owed is for the President to draft what 
that authorization should look like so we have something to 
work from. What I would argue as well is that we need an 
authorization because this is a different kind of enemy. This 
is not a nation-state that is going to be pretty obvious what 
it is going to look like when they are defeated. We need to 
have a discussion about what defeat looks like. We need to 
define that term.
    I would also argue what we need is we need an authorization 
that is good not only for President Obama, but a future 
President, because I agree with President Obama: this is not 
going to be a war or a conflict that ends quickly. So that is 
why I am looking to the Commander in Chief, I am looking for 
what he believes he needs and what his successor or successors 
might need to grapple with and take the actions they need to 
take to keep this Nation safe with this brand new--over the 
last decade or two--this brand new threat, not a nation-state, 
but an ideology that wants to kill Americans.
    Secretary Kerry. The President would agree we should, and 
that is exactly what we are trying to do.
    Senator Johnson. Well, again, I will look forward to the 
draft because it would make this process just a whole lot 
easier.
    Secretary Kerry. Well, again, we are pretty close as we are 
sitting here. I think we just have to sit down and work through 
the differences. The President has said that in general terms 
this is a pretty good----
    Senator Johnson. Does the President really believe that 
ISIS or the new name, Daesh, will be defeated in 3 years? Does 
he really believe that is the case?
    Secretary Kerry. No, the President has said this is going 
to take a long time.
    Senator Johnson. Why would we limit ourselves to a 3-year 
time period then? Why would you want to hamstring his successor 
having to come back before--I am sorry--this dysfunctional 
body? Let us face it. We had this hearing in May of this year, 
and now we are back here in December. This is not going to be 
concluded with authorization for the use of military force. We 
will take a show vote, but this will not give President Obama 
the authority that he needs and that his successors will need. 
Why would he even agree to a 3-year limitation? Is that a 
responsible thing for a President to do?
    Secretary Kerry. Well, Senator, first of all, look, it is 
hard to have the argument both ways the way you are trying. If 
it is dysfunctional, maybe then there is a real reason why the 
President did not send it up. I think that is not the reason, 
and I do not mean to make fun of it. He is not--that is not the 
reason, and that is not where it is. The President--for 2\1/2\ 
months now we have been preoccupied in trying to focus on 
putting together the strategy, implementing the strategy, 
building the coalition, and doing what we have needed to do. 
There have been seven meetings during that time. I do not know 
what happened at those meetings, but there have been seven 
meetings.
    Senator Johnson. Well, let me ask you. Why not?
    Secretary Kerry. Well, let me just--let me just----
    Senator Johnson. Why are you not aware of what happened in 
those seven meetings?
    Secretary Kerry. Because I am not in those meetings. Those 
are in the White House. That is White House counsel. I work----
    Senator Johnson. They are not giving you a briefing or 
sending you a memo?
    Secretary Kerry. I think, Senator, let me just come to your 
other question, which I believe was--you asked about the 
timeframe, would we limit it? Why would we limit it? And if you 
listened carefully, what I said is I am not in favor of that 
limitation without the ability to have the renewal. But I am 
trying to balance.
    Look, what we are trying to do here, I think all of us--let 
us not get dragged down into a sort of, you know, unnecessary 
debate here. We want to build the strongest vote possible. We 
want to see if we can meld the differences into something that 
is acceptable to both sides. That has often happened here 
historically, and certainly when I was here in 1991 and other 
times when we did this, we did that. We ought to be able to do 
it now. There is a balance of interests.
    Now, some people have an interest in protecting the 
complete open-endedness of the Presidential authority as they 
deem it to be given under the Constitution, and there are 
others here who, by virtue of experience and, you know, bad 
experience, want to have a little restraint, and they are 
trying to balance. We think we are offering a way to try to 
figure out how you do that, which is to give a sort of fixed 
period of time during which you will have the chance, the 
Congress, to take stock of it so it is not purely open-ended, 
but also so it is a responsible process that I will not end 
unnecessarily. There will be a review of some kind, and that is 
what we ought to sit down and work out.
    How does that work? What is the appropriate way to do that? 
What is the trigger, so that there is a respectful assessment 
of where we are, what is happening, of how it has been 
implemented, and that it is not, in fact, open-ended and 
dangerous and dragging us on into an open-ended ``war.'' So I 
think that is what we are trying to balance. A lot of that 
comes out of the experience of Iraq or even Afghanistan. People 
are worried about it. They do not want it to be that again, and 
everybody is sensitive to that. So I think we are just trying 
to find the appropriate balance between those things, and I 
think, as I say, the chairman's mark is a good starting place, 
and we should work off of that.
    The Chairman. Senator Coons.
    Senator Johnson. Thank you, Mr. Secretary.
    Senator Coons. Thank you, Chairman Menendez, and thank you, 
Ranking Member Corker. And thank you, Secretary Kerry.
    Secretary Kerry. I would think you would have an 
administration say the chairman's mark is a good starting 
place. It does not happen that often.
    Senator Coons. Thank you, Secretary Kerry, and thank you 
for your hard work and your leadership in assembling and 
helping steer the coalition against ISIL. And thank you for 
your presence with us today. I am relieved we are having this 
debate and that we are having it in the open. I believe the 
American people deserve, and our values demand, exactly this 
sort of a robust and open debate, and I think that Congress 
should not adjourn until we vote on an AUMF.
    We have raised important and difficult issues, and as you, 
Mr. Secretary, just commented, it is in large part because of 
the difficult history of the lessons learned from the cost, and 
the reach, and the scope, and the complexity of our conflicts 
in Iraq and Afghanistan, and the 2001 and 2002 authorizations 
that were the foundation in some ways of those actions that 
there are real concerns here. And I think this is the sort of 
debate, the sort of give and take between executive and 
legislative branches that our Founders imagined. We have to, in 
many way, reexamine and reset that relationship.
    Let me also just put on the table, I think, an important 
issue that has not been touched on so far, an issue that is 
vitally important not just for this committee, but for Congress 
to consider. The wars in Iraq and Afghanistan, according to a 
CRS report that just came out, there was a total of about $1.69 
trillion requested to pay for the cost of those two wars. And 
as other members have commented, the Congress has two ways to 
restrain the Executive in the conduct of long wars. First, the 
authorization or declaration of war, and second, how we fund 
them. And it is my hope, my expectation, that we cannot write 
another blank check for war, as was unfortunately the case 
under previous Presidents and previous Congresses for previous 
conflicts.
    Now, paying for war is not fiscally, but also morally 
responsible. It is not right to expect that the only people who 
sacrifice would be our troops and their families. And so, 
expressly having a conversation about how to offset the cost of 
this war through a reduction in spending or an increase in 
revenue or both will help Americans have a more direct 
connection to the conflict and an awareness of its impact, not 
just in terms of our spending, but our steadily growing 
national debt.
    I am aware this responsibility does not fall just on this 
committee, but it is the duty of the Congress, as we debate the 
scope and the strategy for this conflict, to also look squarely 
at its cost and how to pay for it. And so, I will continue to 
raise that issue as we move forward with the debate about the 
AUMF.
    Let me, Secretary Kerry, if I might, first just bear down 
on an issue that I do not think I have heard a clear and 
concise answer to. So, if we are trying to come up with an AUMF 
that recognizes some of the challenges of the 2002 AUMF and 
that puts some restraint on the use of ground troops, and that 
strikes you as unacceptable in this effort, as you put it, to 
balance restraint against an open-ended conflict while allowing 
the President, the Commander in Chief, the flexibility to 
prosecute this conflict successfully. I think one of the 
reasons there remains real hesitation, real resistance to just 
an open-ended commitment to conduct of any kind is that we have 
not had a full debate or discussion about the strategy. We 
cannot go home and clearly defend what the strategy is, 
although you laid out the five core areas in which there is 
ongoing and effective activity.
    Could you accept an AUMF that was limited in time, as you 
discussed previously, and that initially had a limitation on 
large-scale ground combat, but required and examination of 
strategy and then a reconsideration of the AUMF to remove that 
limitation on the Commander in Chief's scope to conduct this 
and prosecute this war?
    Secretary Kerry. Well, I think by implication the way the 
administration is looking at it, there is some restraint 
because the President has been pretty clear. And there is no 
current scenario that he would imagine where--I mean, if you 
are putting a restraint in time, you are automatically not 
getting into a long-term activity. So the 3 years is, in fact, 
the best automatic limitation on this problem of long term.
    And if you have the right kind of formula for the trigger 
or for the--you know, I can think of several now, but I am not 
going to go into them now. I do not think it is appropriate to 
do that here, but we could--you know, we could certainly sit 
down and bang out the ways that balance the interests that 
create a sufficient level of review so you are certain you are 
going to get your whack at it, but it is not--you know, it is 
not self-limiting so that the wrong message is sent, and you 
are not going to prosecute the war. You know, some people still 
have--struggle with that terminology. But that is where I think 
it is.
    So I would suggest there is a balance, and I think we can 
work that out. I do not think you have to have the ground troop 
limitation by virtue of the 3-year piece.
    Senator Coons. Well, Mr. Secretary, I join many of my 
colleagues in both expressing a desire for a bipartisan AUMF, 
and for a more robust and more broad discussion and debate 
about the strategy and what the direction is going to be. But I 
do want to make it clear that I support the conduct of this 
conflict against ISIL, that I think they are a real and present 
threat to the United States and our allies in the region, and I 
do think we should be supporting our armed forces. But weeks 
have turned into months since the War Powers notifications came 
up here, and I think this Congress needs to be more actively 
engaged in being accountable for authorizing this conduct.
    Let me move to one more question with the time I have. It 
was announced today roughly 1,500 soldiers from the 
international coalition against ISIL will join roughly 3,100 
Americans in the train and equip mission in Iraq to train the 
Peshmerga and the ISF. How else will our coalition partners 
assist in the campaign? In a previous conflict in the region, 
many of our partners contributed significantly to the financial 
cost of the operations. Will we be complementing this training 
role with financial contributions from our allies and partners, 
and can you give us any further update on your expectations 
around ground troops? I was encouraged by your comment that 
many of our allies and the administration believe that non-U.S. 
ground troops are mostly likely to be effective in this 
conflict and in this context.
    Secretary Kerry. Well, the answer, Senator, is that--the 
answer is, ``Yes,'' a number of countries are committed to 
providing financial input as well. To some degree, some of 
them, it depends what we choose to do. But the answer is, yes, 
they are prepared to provide financial assistance, and already 
are in some ways. For instance, the training facilities in some 
of their territory they are taking of.
    In addition to that, there will be a variance between 
countries as to who is doing what. As you know, five Arab 
nations are flying with us in the missions over Syria--Saudi 
Arabia, United Arab Emirates, Bahrain, Jordan, and Qatar. And 
in addition to those five, we have countries from all over the 
world who are contributing one way or the other, whether it is 
to training, providing direct assistance, providing 
humanitarian assistance, providing equipment, providing arms, 
and, in some cases, presence on the ground in the case of a 
number of our close allies in the actual training activities. 
Australia is a case and example, Great Britain, others are 
doing that. So there is a full-fledged, broad-based engagement 
by many different countries in many different activities.
    Senator Coons. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, and thank you for being here, Mr. 
Secretary. You are a very good diplomat. You have mentioned 
that the President does not need to outline his AUMF because we 
have one here, the chairman's mark. But then in your testimony 
you very clearly state, pretty clearly at least, diplomatically 
that we need to do far better than that.
    And Senator Johnson went through some of the AUMFs that we 
had or those facsimiles from World War II. If you go beyond 
that, I am looking at a few of them here. The one in 1955 with 
regard to defense of Taiwan, the President ``authorized to 
employ the armed forces as he deems necessary.'' In 1957 in the 
Middle East, ``authorized to cooperate with and assist any 
nation or group of nations.'' 1964, Southeast Asia, ``take all 
necessary measures to repell any armed attack.'' Then we come 
to this one where the President is authorized ``subject to the 
limitations in subsection (c).''
    I would submit that that is not very comforting to our 
allies, and it is not a very strong AUMF. In fact, it more 
accurately may be an authorization for the use of not too much 
military force. When you signal to our enemies and to our 
allies that we are not going to use ground troops, and we 
certainly do not want to. We may not anticipate that we will. 
But to put that aside and say we are not going to just does not 
strike me as wise.
    The President as Commander in Chief can certainly have that 
policy, but he can change his mind as conditions warrant. It is 
far more difficult once the Congress has spoken to go back to 
the Congress and say now conditions have changed on the ground, 
and we need a new AUMF. What do your enemies do in the 
meantime? What do our allies do in the meantime?
    So I would respectfully say that when my colleagues here 
are saying that the President needs to show more leadership and 
actually put an AUMF together and present it to the Congress, 
one that is in keeping with the history and what we need for 
the future. All of us can draft our own. I have drafted mine. I 
will be glad to give you a copy. But that does not substitute 
for one that will come from the President and for him to make 
the strong case to Congress that this is what we need. That is 
what we need. As you put it, our allies deserve it. They need 
it. Our enemies need to understand it, and we need this country 
together.
    So, again, I would ask you why in this context can we not 
get the President to submit his AUMF. And all due respect to 
the chairman and others who have tried to put something 
together here that can pass, I would submit that it is not 
worth it to get something that so limits our President in his 
options, that it is not comforting to our allies, and it is too 
comforting to our enemies.
    Secretary Kerry. Well, Senator, thank you for your 
comments. Listen, I said at the outset that the problem that 
the President and the administration has with this is this 
question of the limitations and restrictions, so, I mean, I 
have been very clear. But I have also said we think there is a 
way to try to work with you. We do not want to, you know, sit 
here and stop all capacity to be able to get a strong 
resolution by simply being stuck in a place where we say that, 
you know, we are not going to accept any kind of appropriate 
calibration of this. So we think that there is a way to try to 
figure that out.
    Now, I do not disagree with you. I do not want your second 
example--what was the second one you said about the prior use 
of force authorizations? You went back to the fifties?
    Senator Flake. It was something in 1957, the Middle East.
    Secretary Kerry. Yes, 1957, Middle East, yes. Well, 
certainly at least from '64, which Senator McCain and I are 
pretty familiar with, onto Iraq and others, I think there has 
been a strong reaction in the country that unfettered openness 
has resulted in some bad judgments that have cost the country 
an awful lot of money and other assets. And I think that the 
tension here in this debate obviously is between those who are 
willing to provide that full constitutional authority that the 
President can make those decisions and should not have any 
restraint at all, with those who are cautioned by the past and 
want to have some adequate congressional restraint, reflecting 
the reluctance of the American people to get into another open-
ended deal.
    Senator Flake. I would say----
    Secretary Kerry. So how do you balance that? And I think 
there is a way to balance that. Part of the balance comes in 
this 3-year duration notion with Congress' preordained and 
defined input. It seems to me that is a pretty measured way to 
try to do it. Now, maybe there is some other notification 
requirement that we could work through here and so forth.
    I do think, and the President feels, and I know that the 
members of the military feel very strongly, that in terms of 
actually implementing--I mean, we all have decided we have got 
to defeat these guys. Everybody is agreed that we have to 
degrade and defeat ISIL. And I do not think that Congress is 
going to sit here and say that, well, we are going to tell you 
exactly step for step how you are going to do that. That is 
what we have the professional military for.
    Senator Flake. If I may----
    Secretary Kerry. And we need to make sure that, you know, 
there is a balance here between the President's rights as 
Commander in Chief and the military's ability to implement and 
achieve our goal. That is the balance we are looking for.
    Senator Flake. I would say post-1964, you mentioned there 
has been an attempt to balance this because of some situations 
we have had. Those have been more on--any conditions that have 
been with the AUMF has been on the--we can only authorize the 
use of force after all diplomatic measures have been exhausted. 
That is typically what is done on the front end, but once we 
commit ground troops, or our military forces, I should say, 
then in virtually every case that I have seen, unless I am not 
aware of others, we have never tied the President's hands or, 
as you put in here, that we do not preemptively bind the hands 
of the Commander in Chief. And I just do not think it would be 
wise to do so here. And so, thank you for your testimony.
    Secretary Kerry. Thank you very much, Senator. Appreciate 
it.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Thank you, Senator 
Menendez, and thank you, Secretary Kerry. Senator Menendez, you 
really pushed to get us here to this point. I mean, and I know 
the ranking member did, too, and so that is important. And, 
Secretary Kerry, we would not be here without you because we 
needed at least one witness to try to address this, and I 
really appreciate you helping us work through it.
    I have a couple of questions just about how things are 
going now. Maybe you cannot answer them. The success of our 
United States strategy in Iraq appears predicated on the shift 
of Sunnis away from the Islamic State and toward cooperation 
with the government. And to what extent is that shift 
occurring, if at all, right now, and what factors will 
determine the extent of the alteration in allegiances?
    Secretary Kerry. Well, that is a very good question and an 
appropriate one because essential to the ability to be able to 
be successful in Iraq will be inclusivity of the Sunni 
population, the commitment of the Sunni tribes, the tribal 
leaders to take on this fight, and to ultimately join with the 
national army in order to push ISIL out. That, I believe, is a 
work in progress. Not ``I believe.'' That is a work in 
progress.
    There are currently a number of battalions that are in 
training. You know, those battalions as they move out of 
training will allow those that are experienced and held 
together to go out into the field. There is work being done 
with the tribal leaders right now. The tribes--a certain number 
of people that are coming together to provide a Sunni fighting 
force as part of it. There is a plan to be implemented to put 
in place a national guard which will be more reflective of 
people and where they live so that there is an inherent 
investment by them in defending that community, which there did 
not exist in previous----
    Senator Udall. Is the shift taking place, and to what 
extent? That is what I really want to get at the heart of.
    Secretary Kerry. That shift is beginning to take place. It 
is beginning to take place. It is in its early stage. I do not 
want to promise you something that is beyond where it is, but 
it is beginning, and it is legitimate, and there have been 
successes. The Baiji area has been--the refinery has been--you 
know, it is not complete yet, but it has been a success thus 
far in pushing ISIL back. The Amirli relief effort that took 
place. The Mosul--the Haditha Dam, the Mosul Dam. These are 
areas where there have been clear successes. And there are 
increasing other efforts that are taking place.
    So we believe that there are very promising signs. It is 
too early to stand up and down and shout, but it is moving in 
the right direction. And we feel confident that it is the right 
strategy.
    Senator Udall. Now, when we announced that we were going 
to--when the President announced degrade and destroy ISIL, a 
number of groups around the world in Islamic countries pledged 
allegiance to the Islamic State. How should the authorization 
of force treat groups who have pledged their allegiance to the 
Islamic State, including, as of December 2014, groups in 
Algeria, Libya, Egypt, Yemen, and Saudi Arabia?
    Secretary Kerry. They should be associated forces. They fit 
under that category.
    Senator Udall. So they--okay. Now, and you have outlined 
here the three areas of authorization of force. One of them is 
duration. And you mentioned in your testimony, Secretary Kerry, 
a provision that provides for an extension under certain 
circumstances. So you are willing to go with 3 years, and just 
as an aside I am much closer to Senator Paul with 1 year. But 
assuming you are willing to go with the 3 years, who is the 
extension the choice of? Is it the administration or the 
Congress, or do you want a provision that just allows the 
administration under specific circumstances to go forward?
    Secretary Kerry. Well, that is where it has to be--I mean, 
that is the precision of the language that we have to sit down 
and work through. And I would want White House counsel and 
others obviously to weight in very heavily on that.
    Senator Udall. But this is a policy question.
    Secretary Kerry. Well, it is always policy question. 
Congress always has the ability to cut off money for something.
    Senator Udall. Right.
    Secretary Kerry. I mean, you have the power of the purse no 
matter what is stated, and the President has the power of the 
Commander in Chief and Executive authority. And he will make 
his decision, and that is the debate. My thought is that if you 
sit down and work this through, you will come up with an 
equation that works effectively.
    Senator Udall. But you will not today say that provision 
should be Congress revisiting it at 3 years or the 
administration----
    Secretary Kerry. Well, I think the administration deserves 
first crack. There is no question about that, but it ought to 
be done in a way----
    Senator Udall. So it is not a real 3 years. You want a 
longer duration.
    Secretary Kerry. No, I said first crack at it. I mean, I do 
not think Congress is going to sit here and say, yes, you ought 
to continue it, and the Executive is saying I am not going to 
order my troops to do that. Clearly the Chief Executive, 
Commander in Chief, is going to make a decision as a matter of 
the administration's foreign policy and its war fighting 
policy. But there needs to be, obviously I would assume for 
you, some manner of weighing in on that. And how that is 
effected and what the language is is precisely what we ought to 
be working through. That is not for me to casually throw it out 
here this afternoon, and I think that would be, you know, 
inappropriate. But I know there is a way to balance this.
    Senator Udall. And I think the important thing is that 
Congress, whatever the period of time, needs to reweigh back 
in, be involved, be engaged in terms of where we are at that 
particular point. And in the three areas you outlined on the 
authorization of force, my opinion is what we are talking about 
is an open-ended authorization. There is no geographic 
limitation. I think there should be geographic limitation. I do 
not think we should allow the administration to go into Libya 
or a number of other countries surrounding this area.
    Secondly, this language ``no boots on the ground,'' the 
President has used that language very specifically over and 
over again. That should be in the resolution. It should be 
strong. And if you want to have boots on the ground, you should 
come back to the Congress in order to continue with a war with 
American troops on the ground.
    And as far as the duration, I mentioned that earlier. I 
think one year would be more appropriate because it has been 
very difficult for us to get the information we need in order 
to find out whether we should be moving forward or not. And 
then just as a final issue here, I want to mention the issue of 
paying for this. There is no doubt that we are starting a third 
war in this particular region. You do not have to look very far 
to know that it is a war to look at Kobani, look at the troops 
that are fighting, look at the air strikes.
    And one of the biggest questions with all wars is how do 
you pay for them, and up until Iraq and Afghanistan, the 
generation that fought a war paid for the war. And I believe we 
started a policy, which was a very misguided policy. We put 
Afghanistan, we put Iraq, we put them on the credit card. So as 
the President prepared to present a plan to the Congress to pay 
for this war, the President says it is going to be lengthy. It 
is going to be 3 years. Is he willing to put forward war bonds, 
war surcharge, a terrorism tax like some have called for? Is he 
willing to put anything on the table in order to pay for this?
    Secretary Kerry. Well, the President has put on the table--
the request for $1.52 billion was additional resources for the 
Department of State/USAID to degrade and ultimately defeat 
ISIL. We have put additional funding requests in. There is $520 
million foreign----
    Senator Udall. I am talking about paying for it with a 
war--like all the other wars that have been paid for, not 
putting----
    Secretary Kerry. Well, this is paid for within the context 
of the current budget and the process.
    Senator Udall. Well, I take it--I take it you are not----
    Secretary Kerry. And that is what we are doing. But in 
addition to that, let me just say one thing, though, Senator, 
if I may. Look, I respect the notion that you have an opinion 
about 1 year and strong feelings about--you know, strong 
feelings about the geographic area, et cetera. But I will say 
to you, if you limit this geographically, you are saying to--
and we did not limit al-Qaeda geographically. And we have been 
able to do very real damage to al-Qaeda and keep plots from 
hitting us--the Christmas bombing plot, other plots that have 
come out of other places than Pakistan or Afghanistan. And I 
think one of them came out of Yemen, another out of another 
location, Northern Africa.
    I mean, we have been able to do those things because we are 
not limited by geographic authority. And I will tell you that 
we would have a much bigger problem today if we were, and it 
would be terrible to send a message to these guys, you have a 
safe haven over here and safe haven over here. And if we do not 
take this seriously--I mean, this is bigger than just where it 
is in Iraq and Syria.
    Senator Udall. I know----
    Secretary Kerry. And secondly, let me crystal clear. We did 
not start this. We are not about to start a third war. Osama 
bin Laden started this on 9/11/2001, and he has continued it in 
absentia obviously through what al-Qaeda does. ISIL, Daesh, is 
an extension of al-Qaeda. It is part of the same thing. It is 
clear what they want to do, and it is a risk and danger to all 
of the region, which is why we have this extraordinary 
coalition.
    This is not the United States of America trying to start 
something, and there is not a country in the region that is not 
looking to us for leadership right now and working with us and 
grateful for what we are doing here, because they are at risk--
Saudi Arabia, Egypt, the region, Syria, Israel. You run the 
list--Jordan. Ask any of them. That is why they have publicly 
stepped up and they are part of this effort.
    So I think we have to understand this is the fight of the 
generation. That is what I believe certainly, and President 
Obama believes it. And we need to understand what a big 
challenge it is, and it is going to take a lot more than just 
trying to deal with it through this military component. There 
is no ultimate military solution, though we have to fight back, 
against the Daesh. But if a lot of young kids out there are 
left to their own devices and do not have options for jobs, and 
education, and a decent life, and opportunity, and respect, and 
dignity, and so forth, this is going to continue. And the 
United States and our allies need to work at that side of the 
ledger also.
    The Chairman. Senator----
    Senator Udall. Well, that is something that we can agree 
on, and I know my time is up. Thank you, Mr. Chairman.
    The Chairman. Senator McCain.
    Senator McCain. Well, let me say I agree with your comments 
about the parameters of an AUMF, but, you know, this is really 
kind of a charade we are going through because the Congress of 
the United States is not going to act in the next couple of 
days, because I have been involved in many AUMFs, and not a 
single one was generated from the Congress.
    The reason why the Constitution calls the President the 
Commander in Chief is because he is supposed to lead, and if he 
wants an authorization for the use of military force, then he 
should lead and tell us what he wants that authorization to be. 
And, frankly, for you to say that, well, we welcome it or 
whatever it is, of course, is an abrogation of the 
responsibilities of the President of the United States as 
Commander in Chief. So as we go through this charade, whether 
we have a vote or not in the next day or so before we go out 
is--almost makes it all irrelevant.
    But I would hope in January working with the new chairman 
and the new ranking member and other members of this committee 
that the President of the United States would present an AUMF 
to the Congress and to this committee, and we could work 
together on it. But it has got to be led by the Commander in 
Chief, and, frankly, that is how the system works, and that is 
how it has worked every time.
    Now, I would like to switch gears real quickly. Here is a 
Washington Post, ``U.S. Backed Syrian Rebels Thwarted by 
Fighters Linked to al-Qaeda.'' ``Time is Running Out For Obama 
in Syria.'' ``Western Backed Syrian Rebels Are in Danger of 
Collapse Before Help Arrives.'' All of these facts are well-
known to media experts, and the rebels are on the verge of 
collapse; they are getting beaten very badly. And one of the 
major reasons why they are getting beaten very badly is because 
they are subject to barrel bombing and air attacks from Bashar 
Assad.
    So I guess my question to you again is what I asked you the 
time--and by the way, Ambassador James Jeffrey says times is 
not on our side--reconsider the no U.S. combat formations on 
the ground decision because you may have to either renege on 
that or you may have to fall off your very important mission of 
destroying ISIS. I think there is a gap between the two.
    Ambassador Ford, ISIS is not something which drone strikes 
or F-16 strikes is going to contain because the Islamic State, 
let us face it, it is a state. So you do not destroy a state 
with drone strikes. You are going to require boots on the 
ground.
    So what we are seeing, I would say to you, Mr. Secretary, 
is the incrementalism that I saw in the Vietnam war. We are 
seeing decisions made in a tight circle in the White House. We 
are seeing them incrementally implemented. We see, what, 200 
troops, additional troops, then 500 more, and then 1,000 more.
    Meanwhile, our Syrian rebels honestly do not understand why 
you will not protect them from Bashar's intense bombing 
campaign, and we are not attacking Bashar Assad. And we are 
asking these young people to fight and to die, and Bashar 
Assad, as you should know, is their major enemy, and we are not 
doing anything to stop Bashar Assad from barrel bombing them 
and slaughtering them.
    Which--and this is the guy that has killed 200,000. This is 
the guy that has caused 3.5 million refugees. This is the guy 
that still has 150,000 people in his prisons in which he has 
treated with great atrocities.
    Still one of the great mysteries to me in my life is these 
photos that were smuggled out by a guy named Caesar, got no 
response from the President of the United States or, frankly, 
from you. Should have been a casus belli.
    So here we are with the rebels being routed because they 
are being attacked not only by Bashar Assad, but also extremist 
organizations called ISIS and others. And they are in the verge 
of collapse at least in one part of the country.
    So now you are telling me we have a strategy to defeat 
Bashar Assad, and we have a strategy to defeat ISIS in Iraq and 
Syria, even though we are treating them as two separate 
battles, at least as far as strategy is concerned. Maybe you 
can respond to that and tell me what--how you justify morally 
telling young Syrians to go and fight in Syria and yet allow 
them to be barrel bombed by Bashar Assad, whose intensity of 
air strikes vastly increase those--are greater than those of 
U.S. air strikes on ISIS.
    Secretary Kerry. Well, Senator, thank you.
    Look, I think everybody is--there are certain frustrations 
here. We all understand that, and I will come back to Syria in 
one quick moment. But in point of fact, if I can correct you, 
you are not correct that when we have been here, there have not 
been instances where authorizations did not originate right 
here in the committee.
    The year before I came here, on the Lebanon in 1983, it 
did. In 1991, when I was here, it originated here in the 
committee. George Herbert Walker Bush sent 350,000 troops to 
the Middle East to respond to the invasion of Kuwait.
    Senator McCain. Well, I will be glad to argue with you 
about it, but it is led--it has been led by the Presidents. I 
would appreciate if you would go on and----
    Secretary Kerry. No, no.
    Senator McCain [continuing]. Justify how we can continue 
the massacre of brave young Syrians.
    Secretary Kerry. I will come back to it, Senator. But I am 
going to answer the question.
    Senator McCain. I did not ask a question. I made a 
statement.
    Secretary Kerry. And it was incorrect.
    Senator McCain. Now please move on----
    Secretary Kerry. Well, your statement was incorrect, 
Senator.
    Senator McCain [continuing]. To the slaughter in Syria, 
please.
    Secretary Kerry. Well, look, I am not going to sit here 
like a ping pong ball. I think that your statement was 
incorrect, and you know, everybody is accountable for what they 
say, and so are you. The fact is you are incorrect.
    On January 8, 1991, Bush sent a letter here requesting it 
to adopt a resolution, and a few days later, Congress gave him 
what he asked for. And Congress originated it.
    Senator McCain. Yes, and he--and I was there, and he came 
over with a proposal. So go ahead.
    Secretary Kerry. Did not come over----
    Senator McCain. He did come over with a proposal. You and I 
can argue about that if you want to. I was here, too. He came 
over with a proposal.
    Secretary Kerry. He did not, and the record will show that.
    Senator McCain. The record will show that he did, if it 
was----
    Secretary Kerry. And again, in Somalia in 1993, the 
committee likewise did it. And I served on the committee. I 
think I know what happened back then.
    And Senator Biden, now Vice President, was on the 
committee, and we know what happened. So we can let the record 
speak to that.
    With respect to what is happening, I think I was up front 
and stated that in the north they are seriously challenged. We 
understand that, and we have said that.
    But the fact is that more is being done and more is being 
done than I can talk about here in this hearing, but the fact 
is that there are greater capacities being provided to the 
opposition. And our hope is that when we work things through 
with the Turks and over the next days, certain decisions will 
be made that, in fact, will provide greater capacity. But, yes, 
they are challenged today in the north.
    But here is a reality. What we are doing to train them, the 
opposition, and what is being done with respect to ISIL, 
because the opposition, particularly in the north, has been 
fighting ISIL, and they have been fighting al-Nusra, and they 
have been fighting the regime.
    What we are doing----
    Senator McCain. And we are allowing them to be barrel 
bombed.
    Secretary Kerry. We are not allowing them to be barrel 
bombed.
    Senator McCain. We are not preventing them from being 
barrel bombed.
    Secretary Kerry. Well, is the committee ready to vote?
    How many votes are there in this committee for American 
forces to now go in----
    Senator McCain. That is not my answer. My answer is to give 
them the weapons they need, which they do not have.
    Secretary Kerry. I just said to you that----
    Senator McCain. They do not have those weapons. It has been 
3 years. It is 200,000 dead. I said----
    Secretary Kerry. Senator, I just said to you there are 
things we cannot----
    Senator McCain. I said the last year when we were at--you 
were going to hit the trifecta. You hit it on Syria, you hit it 
on the Palestinians-Israelis, and now you are going to hit it 
on Iran. And now we are still not giving these people the 
support they need and deserve while 200,000 of them have been 
butchered.
    Secretary Kerry. Senator, we are in the process right now, 
and I think you know this, there are certain things that are 
happening. And I do not think--I think it is a little 
disingenuous to suggest that nothing is being considered and 
nothing is happening when it is.
    And the fact is that in a classified setting, you can go 
through precisely what is taking place, and I think you will 
have a better sense of what the options are.
    Senator McCain. I am sure there is young people that are 
dying in Syria are pleased to know that things are happening 
that we cannot even talk about. Disgraceful.
    Secretary Kerry. Well, Senator, I mean, the rules of the 
Senate----
    Senator McCain. My time has expired.
    Secretary Kerry. Now the rules of the Senate, you know, 
classified information is classified information. I mean, if 
you want to fight about that, you can. But----
    Senator McCain. I am not talking about classified 
information.
    The Chairman. Time.
    Senator McCain. I want to know why we have not helped them 
for the last 3 or 4 years. They are fighting for freedom.
    The Chairman. The time of the Senator has expired.
    Secretary Kerry. Senator, we are helping them.
    Senator McCain. Appreciate it.
    Secretary Kerry. We might not be helping them to your 
satisfaction, but there is a lot of help being given to them.
    Senator McCain. Not to their satisfaction.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you and the ranking member and Secretary Kerry for taking this 
process so seriously.
    I do not think this is a charade. I think whether or not we 
pass this through the House and through the Senate in the next 
few days, this has been a forcing mechanism. Without a 
submission from the administration, for whatever reason they 
may have, we needed this process. We needed these deliberations 
in order to get to a text that while it may not pass through 
both houses in the next few days, will be much more easily 
passed in January because of the work that this chairman and 
this committee has done and, hopefully, the discussions that 
Secretary Kerry is prepared to be a part of.
    Two quick points, the second leading into a question. And I 
think what we are talking about here is a distinction between 
what the administration believes to be preferable, an 
authorization, and what many of us believe to be necessary, 
which is an authorization.
    And just by way of explanation as to why many of us think 
that, I do think there is a difference in terms of what we 
believe ISIS to be. Many of us, respectfully, do not believe 
this is just a matter of a name change. This is an organization 
whose name is different, but who had a very specific tactical 
and strategical difference with al-Qaeda. There is a change in 
hierarchy.
    And many of us worry that if a change in name and a change 
in tactic and a change in strategy and a change in hierarchy 
does not prompt us to pass a new authorization, we are not sure 
how we ever get out from underneath the original 2001 AUMF, 
which is why we think this is vitally necessary.
    My second point is on this question of limitations. Senator 
Flake and Senator Johnson rattled off a list of authorizations 
that were fairly open-ended in nature, and that certainly has 
been the practice often of this Congress. But I can rattle you 
off a similar list of authorizations that the Congress has 
passed that have limitations.
    You can start in the 1790s with our authorizations for 
action against the French navy. But fast forward to 1983, the 
authorization for military force in Lebanon, 1993 in Somalia, 
2013 the authorization passed by this committee, all of them 
had different kinds of limitations. Limitations on time, 
limitations on tactics.
    And so, it really is just a question of whether we think 
that the policy that we are talking about is so important that 
it should be in statutory language. And I think that is what 
you are hearing from many of us on this committee, that we 
understand that it is preferable to have a bipartisan bill, 
that in most circumstances, it is probably preferable to grant 
substantial deference to the administration.
    But occasionally, there are questions that are so important 
that they are deserving of a statutory limitation, and that is 
why I think we are having to struggle over this question of 
ground forces because many of us believe that the deployment of 
ground forces in the Middle East today would essentially be 
fighting a fire with gasoline. That if we have learned anything 
from the last 10 years, it is that the massive deployment of 
American forces create twice as many foreign fighters and 
extremist fighters as they eliminate in the long run, and they 
provide a crutch for domestic governments to stand down and let 
us do all the work while they continue to stew in their 
dysfunction.
    And I think part of our worry is that the reason why we do 
not have a Department of Defense witness here today is that 
there is substantial disagreement within the administration, 
that there is an element of the military which would like to 
have a serious conversation about the deployment of ground 
forces.
    And we take--and I take at least--I will speak for myself. 
I take the I think you have termed it as a prohibition from the 
President incredibly seriously. I do not doubt for a second 
that you and the President are committed to keeping ground 
forces out of this equation. But many of us worry that that 
balance could tip or that the next administration could think 
differently.
    And so, I guess my question would just be simple. It would 
be helpful to hear a little bit more about why you think, why 
the policy is such that you think it would be a bad idea, that 
it would be counter to our policy of degrading and defeating 
ISIL to insert ground forces into the equation? Because we sort 
of just take that for granted, but that clearly is a debate 
that is happening within foreign policy circles, within this 
committee, within the administration.
    And I think it would be helpful just to hear how strongly 
that view is held within the Department of State and the 
Department of Defense and within the White House.
    Secretary Kerry. Well, Senator, thank you for a very 
articulate statement of what the tensions are here, what is at 
stake, and I do not disagree with you. I think it is important 
for Congress to have that statutory statement of some kind or 
another.
    And I assure you, President Obama, who served on this 
committee for, you know, 4 years and Senator Biden, then-
Senator Biden, now Vice President, who served on this committee 
for about, what is it, you know, 30 years or near, both are 
huge supporters of the War Powers Act, as I am. He has lived by 
it, even in situations where he did not feel like he had to 
necessarily strictly send up, he sent it up. He always moved on 
the side of caution and of compliance.
    And they believe it is important to have an appropriate 
authorization of military force. But as President of the United 
States, he also believes that his constitutional authority is 
vital and his ability as Commander in Chief to fully empower 
his military to be able to effect what he needs should not be 
micromanaged and restrained in a way that might eliminate, 
might eliminate some option they may need at some point in 
time.
    It would be hard to imagine, given the experience of Iraq 
and all that we learned about our forces on the ground and 
these reactions of people indigenously that you talk about, 
that, you know, that someone is going to voluntarily say we 
ought to have major ground force for a long period of time.
    I mean, what we are really talking about is protecting 
against exigencies, emergencies, certain circumstances that may 
or may not arise. For instance, like the rescue effort, 
tragically that did not work, of Luke Somers the other day. 
Would that have been envisioned within it? I do not know. I do 
not think so. But there are other circumstances that may arise, 
and we cannot predict them all. Nobody can.
    So all we are trying to do is preserve, and I think, as 
again I say the duration, the timeframe here is such. And I 
think you, yourselves, you have to trust your own power in the 
Congress and the ability of Congress, if there were suddenly 
movements to do this, I cannot imagine it being funded. I 
cannot imagine that, you know, there is not going to be a hue 
and cry that would be overwhelming in reaction to that, absent 
some, again, extraordinary circumstances that merited that kind 
of response.
    But do you want to pre-guess that? Do you want to 
predetermine what you--then you are tangled up in a statutory 
knot and trying to get out of it. I think the better part of 
wisdom here is to try to maintain an adequate level of 
flexibility, but at the same time preserve your prerogative 
through the duration of time, et cetera.
    Now the administration has said the President is prepared 
to have his people sit carefully, work through this language, 
try to see how to balance these equities. You know, what he 
wants is the broadest vote possible. Get everybody in a place 
where they are comfortable, if that is achievable, and I think 
it ought to be.
    Senator Murphy. I appreciate that. I think the more that 
you review the chairman's draft, you will see that that 
specific hypothetical that you posed is covered by one of these 
exceptions. And I would imagine almost every other hypothetical 
that could be presented is going to be covered by the 
exceptions in the draft.
    But I look forward to that process. I do not think there is 
reason to be as scared of these limitations as you may be, 
given what has already been drafted.
    Secretary Kerry. Well, if they are all covered, maybe it is 
better to say something about no enduring activity or no 
enduring ground--I mean, there is a way to cover it maybe with 
one sentence. Let us think about other ways of doing.
    All I am saying is, folks, let us agree to try to find a 
way to talk this through without posturing.
    The Chairman. As I turn to--as I turn to Senator Barrasso, 
let me just say on that particular issue, page 5 of the draft 
AUMF says that troops are permitted for the protection or 
rescue of members of the U.S. Armed Forces or United States 
citizens from imminent danger posed by ISIS. So it envisioned 
that----
    Secretary Kerry. But I have other examples----
    The Chairman. I am sure we could throw out 100 and I am not 
sure that there would be language that could cover all 100 of 
them. But we were certainly--as I say, I am happy to see the 
language, if that can be envisioned.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Today's hearing on the authorization of the use of military 
force against ISIL, I believe, is critically important. 
Declaring war or authorizing the use of military force is one 
of the most serious responsibilities of Congress. There can 
hardly be a task more weighty and solemn than sending our 
Nation's sons or daughters into harm's way to protect our 
interests.
    So I believe President Obama has an obligation to Congress 
and to the American people to spell out the direct threat posed 
by ISIL, to outline his strategy for comprehensively destroying 
ISIL, and request the authorities he needs to successfully 
complete the mission. I believe ISIL is a threat to our 
homeland, and I support efforts to eliminate this terrorist 
threat.
    Our committee is debating the authorization for the use of 
military force while the President has already been taking 
offensive military actions against ISIL for months. President 
Obama has not submitted a request outlining that authorization 
that he is seeking from Congress.
    Normally, when the executive branch wants an authorization 
for the use of military force, it formally requests that 
legislative authorization and then is actively involved in 
negotiating over the language and advocating its passage. That 
is how the 2001 AUMF was developed. But we see no similar 
effort on behalf of the Obama administration.
    So in the absence of the administration's specific request 
or submission of a proposal for authorization, some Members of 
Congress are more interested in placing limitations in the AUMF 
and tying the hands of the President and our Nation's generals. 
Whether it is geographical or operational limitations, I think 
these limitations are misguided and dangerous.
    Congress should either be authorizing the use of force or 
not authorizing force. Congress should not try to micromanage a 
war through an authorization.
    So if the administration had provided military and 
intelligence witnesses, and the chairman has already made a 
comment about your willingness to come forward, but not having 
all of the abilities to answer all of the questions. You know, 
I would have asked how the limitation of the use of ground 
troops would impact the military's planning and the ability to 
respond to conditions on the ground.
    So since they are not here, I ask you how do we ensure that 
any AUMF continues to allow the United States to strike and 
destroy ISIS should it expand outside of any limitations which 
may be included in an AUMF that is being offered?
    Secretary Kerry. Well, that is precisely why we are trying 
to work out this question of the limitations. Because I cannot 
answer it otherwise.
    Senator Barrasso. So you believe that there should not be 
limitations?
    Secretary Kerry. I said we are prepared to embrace a 
clarification, a process by which there is an understanding of 
how we can balance these equities. It may require some kind of 
restraint that we feel would not abrogate the Commander in 
Chief responsibilities. I think there is a way to work at it, 
and that is what we are offering to try to do.
    But you know, or example, what about non-U.S. hostage or 
prisoner? I mean, that might be a situation. You can run 
through all kinds of things here. The point is we are just 
trying to preclude sending restraint messages to folks that we 
are trying to defeat and degrade and at the same time balance 
the equities of the concerns people have about the open-
endedness that we have lived with in the past. And it is a 
legitimate concern.
    I think everybody ought to try to help find the way to work 
that through, and in the doing so, we can ensure that we have 
the kind of broad-based bipartisan resolution that we deserve.
    Senator Barrasso. Do you think there are additional 
specific authorities that the administration needs that they 
currently do not have to degrade and destroy ISIL?
    Secretary Kerry. At this point in time? You mean the 
authorization we are giving at this point?
    Senator Barrasso. Yes.
    Secretary Kerry. No. I think the President feels that he 
has the full authority, both constitutionally and through the 
current AUMF. But we acknowledge that it needs refining. We 
acknowledge that there is a gap in time and a sufficient 
differential in what we are fighting that the American people 
are owed a more precise articulation that meets the current 
moment, and that is what the President is saying we should 
have.
    Senator Barrasso. Mr. Secretary, your predecessor, Hillary 
Clinton, recently stated in a speech at Georgetown University 
that America needs to show respect for our enemies and 
empathize with their perspective and point of view.
    ISIS terrorists are not going to simply go away. We cannot 
ignore them and hope that they will embrace our values. And we 
certainly cannot empathize and show respect to people who have 
brutally murdered brave Americans.
    So do you believe, as Secretary of State, that a key 
solution to our enemies such as ISIS and al-Qaeda is ``showing 
respect'' and ``empathizing with their perspective and point of 
view''?
    Secretary Kerry. Well, you know, I missed the first part of 
the quote. I apologize. What was it? Empathize?
    Senator Barrasso. Hillary at Georgetown recently said that 
America needs to show respect for our enemies and empathize 
with their perspective and point of view.
    Secretary Kerry. Yes, well, I do not think she was 
referring--I am confident. I know she was not referring to a 
group like Daesh. I think she is--you know, I think in terms of 
what she meant, there is no question in my mind, she is 
referring to those out there with whom we are not actively 
fighting or engaged in war but who are behaving in ways that 
are clearly opposed to our interests.
    And there are plenty of people in that status, regrettably, 
whether it is in the Middle East in certain countries or in 
other parts of the world. I mean, we have a lot of tensions 
right now with Russia, and it is clear that any analysis of 
what is happening in Ukraine and how you deal with it or in 
other parts of the world requires you to look very carefully at 
all their posturing and where it comes from and what may be 
involved and how one might be able to defuse it.
    So I have no doubt that does not include a group like 
Daesh, and I think it would be unfair to insinuate that it 
does.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before I turn to Senator Kaine, you know, a lot has been 
made here about placing restrictions on AUMFs and the 
suggestion that there is no precedent for Congress doing that. 
That is simply not true.
    The fact is, is that most AUMFs historically have limited 
the type of forces deployed into harm's way, the geographic 
scope, and the period of time. It is declarations of war, which 
is not what we are doing, nor what the administration has asked 
us for, that have typically authorized the President to use all 
military means available to the United States for unlimited 
duration.
    My text is clearly not a declaration of war, nor has the 
administration asked us for a declaration of war, and several 
of my colleagues have noted this. But you know, some of the 
AUMFs that have included restrictions are the 1993 Somalia 
AUMF, which authorized United States Armed Forces in a limited 
way to protect United States personnel and assist in the short-
term security of U.N. units; the 1983 Lebanon AUMF that 
prohibited offensive actions.
    The 2013 Syria AUMF that passed through this committee, I 
think one of its high-water marks, in a bipartisan way 
expressly did not authorize the use of the United States Armed 
Forces on the ground in Syria for the purpose of combat 
operations.
    We have a span of nearly 30 years, to take recent history, 
in which AUMFs have had limitations. So the suggestion that 
having limitations is a historical aberration, that is just 
simply not the case.
    Senator Kaine, who has been greatly involved in this issue, 
and along with Senator Paul, their amendments have driven us to 
this--to this moment.
    So, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you, Secretary Kerry. You have not been before us 
to receive the thanks of this committee for some of your 
diplomacy, the diplomatic efforts to help reform the Government 
in Iraq, the diplomatic efforts to break the electoral impasse 
in Afghanistan. I want to thank you for those because those 
efforts were important.
    I want to thank you for your efforts on behalf of the 
administration to build the coalition that is fighting against 
ISIL. Senator King and I went to Al Udeid Air Base in Qatar in 
early October and went to the CAOC, Combined Air Operations 
Center, and we witnessed the coalition in action. Full-screen 
videos, data coming in, United States, Saudi, UAE, Dutch, 
Belgian, French, Canadian, United Kingdom, Qataris trading 
information, making decisions together in both the Syrian and 
Iraqi theaters. Very, very impressive.
    You deserve our thanks for that. But we cannot do military 
action without Congress, and we are currently in what the 
administration has described, beginning in late August, as a 
war against ISIL. Those were the phase that both Secretary 
Hagel has used, the President has used it. Since we moved from 
the immediate protection of U.S. Embassy personnel in Baghdad 
and Erbil, an effort to take back a dam in the middle of 
August, the President said we have gone on offense against 
ISIL.
    Yesterday, we passed 4 months. We are in month 5 of an air 
strike campaign that has involved 1,100 plus air strikes, as 
you testified; 1,500 combat train and assist advisers on the 
ground in the theater, another 1,500 authorized to go. The cost 
of this to the American taxpayer has now been in excess of $1 
billion.
    And three American troops have been killed supporting 
Operation Inherent Resolve, and I just think we ought to at 
least mention their names. October 1, Marine Corporal Jordan 
Spears from Memphis, Indiana. October 23, Marine Lance Corporal 
Sean Neal from Riverside, California. December 1, Captain 
William H. Dubois of New Castle, Colorado, an Air Force 
captain.
    We are at war, and Congress has not yet really done a 
darned thing about it.
    I respect the comments that the ranking member, Senator 
Corker, who I deeply respect, said earlier about the process of 
this is not ideal. It was not ideal when Senator Paul and I 
tried to file an AUMF as an amendment to an international water 
bill last week, but if we had not done it, we would not even 
been doing this at all until January.
    Congress has been silent about this. I do not think we 
weaken our Nation so much with an unwieldy process as we weaken 
our Nation when we do not take seriously the most somber 
responsibility that Congress has, which is to engage around the 
declaration at the beginning, not 5 months in, at the beginning 
about whether we should initiate war.
    Constitutionally, it is required. I am driven by a more 
important value. I do not think it is fair to ask people, like 
these three, to risk their lives, to give their lives in a 
mission if Congress has not had a debate and put their 
thumbprint on it and said this is in the national interest. If 
we are not willing to do that, how can we ask people to risk 
their lives?
    I think it would be foolish to leave here this week or 
next, to adjourn, wait until January when we come back. January 
8, the first week we are back, we would now be into the 6th 
month of war without Congress taking any action.
    This is not about a quest to just seem relevant. For those 
of us who do not believe that the 2001 or 2002 authorizations 
give this a legal authority, every day we have been on offense 
without Congress we believe is an unauthorized war. We believe 
it is a congressional abdication of our oath of office and of 
our fundamental constitutional responsibilities.
    There is a difference of opinion between the executive and 
the legislature on this. But remember, this is about an 
argument about what power the legislature gave to the Executive 
in 2001 and 2002, and you might not be surprised to know that 
those of us in the legislative branch have a pretty strong 
opinion about what that power was and what it was not.
    I do not think we can wait until January or February. So we 
should act. The administration has not done your own draft? 
Hey, we have got a deadline tomorrow to file amendments to this 
one. First degree amendments at 9 a.m. Second degree amendments 
at 6 a.m.
    You say we are close. Offer your own wordsmith and I am 
sure the chairman will make sure that when we talk about it, we 
can consider the administration's position. But we cannot 
afford to wait and get into the 6th month of a war without 
Congress saying a mumbling word about this.
    I think I know the answer to this, but I do want to put it 
on the record, and I want to ask you a question. I want to ask 
you a question about whether the President or the 
administration's position have changed from what the President 
has said. And I am going to read you five statements.
    August 9, 2014. ``Number one, I have been very clear that 
we are not going to have United States combat troops in Iraq 
again.''
    September 10, 2014. ``As I have said before, these American 
forces will not have a combat mission. We will not get dragged 
into another ground war in Iraq.''
    On that same date, ``It will not involve American combat 
troops fighting on foreign soil.''
    September 17, 2014. ``The American forces that have been 
deployed to Iraq do not and will not have a combat mission. 
They will support Iraqi forces on the ground as they fight for 
their country against these terrorists. I will not commit you 
and the rest of our armed forces to be fighting another ground 
war in Iraq.''
    And finally, on September 18, 2014. ``I will not commit our 
troops to fighting another ground war in Iraq or in Syria.''
    Has the President's position or has the administration's 
position, as evidenced by these clear and unequivocal 
statements, changed?
    Secretary Kerry. No.
    Senator Kaine. Let me address the constitutional question 
that the chairman brought up a minute ago because I do think it 
is important. Is there precedent for restrictions or 
limitations in authorization? Senator Murphy dealt with this as 
well.
    I would recommend to all my colleagues an article, 
``Congressional Authorization and the War on Terrorism,'' 
authored by Jack Goldsmith and Curtis Bradley, May of 2005 in 
the Harvard Law Review. It is an extensive review of the 
constitutional power of Congress with respect to military 
authorizations.
    And it begins with a case that went to the Supreme Court 
dealing with the quasi wars that Senator Murphy mentioned 
against the French naval authorities in the 1790s. Congress 
granted limited authorizations.
    The authorizations ``did not authorize the President to use 
all of the armed forces of the United States or to conduct 
military incursions beyond specified military targets, and they 
limited the geographical scope of the authorized conflict to 
the high seas.'' Navy only. No ground troops.
    Most authorizations to use force in U.S. history have been 
of this limited or partial nature. The constitutional argument 
on this is clear. The President's intent, as stated repeatedly 
to the American public and the military, is clear. There has 
been no change in that position, according to your testimony 
today.
    The language in the chairman's mark is not a restriction at 
all. It is attempting to carry out exactly how the President 
has described the mission. And as far as exigencies and 
contingencies go, I give a lot of praise to the chairman for 
trying to listen to all of us, listen to the administration 
through those seven conversations, and put a mark together 
that--that covers the contingencies or exigencies that we can 
think of.
    And finally, the President always has the power under 
Article II to use any forces, including ground forces, to repel 
an imminent threat to the United States by ISIL or by any other 
group or nation. That power is absolute. No one on this 
committee questions it. But in terms of putting restrictions 
into this, it has been done since the 1790s without any 
constitutional suggestion.
    I would hope you might offer some thoughts tomorrow as we 
are contemplating amendments so that Thursday we can do this. 
But I do not think we can wait until the 6th month of this war 
without Congress to finally begin to express the will of the 
Article I branch.
    Thank you, Mr. Chair.
    The Chairman. Senator Paul.
    Secretary Kerry. Can I just make a comment quickly?
    The Chairman. Quickly.
    Secretary Kerry. I will not take long, Senator Paul.
    Just very quickly, first of all, that is a very articulate 
summary and argument with respect to your particular position 
on it. I think historically in most AUMFs and most debates 
about whether we should be using force or not, depending on who 
is President and depending on the balance in the Senate and the 
House and so forth, there tends to be an argument de novo, so 
to speak. And people come in and say, hey, Presidential power 
and the Article II and know there have been restraints. And 
that is going to apply to every situation, as it does here, as 
we are now debating.
    The question is, is there an effective way to achieve this 
goal that, given the balance of interests, et cetera, in this 
situation at this moment, given this particular fight, could 
achieve the goal? Differently perhaps from the way it has been 
laid out, but without losing the impact or the effect.
    I think there may be some ways, and I suggested a couple. 
One is through the duration. Another may be through some kind 
of language that talks about no enduring combat operation or 
whatever, but that is different and that avoids having to get 
into this specific discussion of all the kind of instances, 
which you are trying to cover, Mr. Chairman, respectfully, in 
this.
    So I would just say to you, with all genuine effort to try 
to achieve this goal of getting a maximum vote, I would just 
suggest that maybe a better way than kind of just doing it by 
amendment is to pre-work the amendment or to find out if you 
could come together and get an agreement so that you are doing 
it either by consensus or agreement on that amendment rather 
than just fighting out the amendments, and you have a vote, and 
it is up or down. And you still do not resolve the fundamental 
problem.
    So all the administration is saying to you is we want an 
AUMF. Yet whatever has happened to date--I am not going to go 
backward--we would like to work it through in a way with you 
that comes out with the strongest possible result. Because the 
goal here is to get a result that has an impact for our allies, 
for our troops on the field who are deployed, and particularly 
for the coalition and for ISIL itself to understand our intent.
    And I do not want to see that diminished by whatever 
amendment process may flow without the adequate input.
    The Chairman. Senator Paul.
    Senator Paul. Thank you, and thank you for your testimony.
    I think there is no greater responsibility for any 
legislator than the debate over when we send our brave young 
men and women to war. The Constitution is quite clear that this 
responsibility lies with Congress.
    Madison wrote in The Federalist Papers when describing the 
congressional authority requirement, he wrote that the 
executive branch is the branch most prone to war, and 
therefore, we have with studied care vested that power in the 
legislature.
    I think for 5 months, we have been derelict in our duty. I 
think we have had great leaders in our past. When FDR came the 
day after Pearl Harbor, he came before a joint session of 
Congress to ask for war. George W. Bush came within 2 weeks 
after 9/11 to a joint session of Congress with the same 
request.
    I think this President has been derelict. But I think at 
the same time, there is enough blame to go around for Congress, 
who has also been derelict in their duty. There has been some 
gnashing of teeth that some Senators had the temerity to offer 
this as an amendment to the water bill. Had we not offered this 
as an amendment to the water bill, there would be no debate 
over war at this point.
    So I accept that blame as a badge of honor and pledge to 
continue in the new Congress and to amend any bill that comes 
before the Foreign Relations Committee with the use of 
authorization of force until we do finally have a debate and a 
vote before the full Congress, as we should.
    There was some discussion, and you have said the 
administration is opposed to a geographic limit. Some on our 
side are basically for no limits at all. But after watching 
what has happened in the last 15 years and watching the 
gymnastics, the mental gymnastics that tries to use an 
authorization of force that was intended to be used against 
those who attacked us on 9/11, to say ISIS has anything to do 
with them I think is an absurd notion and an argument for why 
we need to be very careful what authorization we give and very 
strict in what authority we give to the President.
    For example, the administration, through your testimony, 
says they believe no geographic limit. Senator Udall brought 
forward a great example. He said you know what? There are 
groups in Libya, Algeria, Yemen, and Saudi Arabia who have 
pledged allegiance to the Islamic State, and I am going to give 
you a chance to revise your answer because you very quickly 
said, of course, that is why we need no geographic limit.
    Okay. Tomorrow, Medina. Medina, Saudi Arabia, pledges their 
allegiance to ISIS. This resolution will authorize you to bomb 
Medina, Saudi Arabia. Is that the message you want to send to 
the world that you want the authority, the unlimited authority 
to attack geographically anywhere in the world if someone 
pledges their allegiance to the Islamic State?
    That is absolutely why I cannot vote for any resolution 
that does not have a geographic restraint, and realize the 
message we send, if that is the message we are sending, that if 
Medina or Mecca pledges allegiance to the Islamic State, they 
are open to being bombed by the United States. That is a very, 
very scary and I think a wrong-headed message to be sending to 
the Middle East.
    Your comments, please?
    Secretary Kerry. Well, my comment is, Senator, I think 
there is a responsibility to pick logical and legitimate kinds 
of options, number one. And number two, to make a presumption 
in the sanity of the President of the United States, nobody is 
talking about bombing everywhere.
    Senator Paul. Let us be very explicit and limit it then.
    Secretary Kerry. No. Senator, that is precisely what the 
Constitution--you are a student of the Constitution, and you 
pride yourself in upholding it and being a strict 
constructionist. And being a strict constructionist, I do not 
think you should put those limitations on the power of the 
Executive.
    If you want to get into it as a declaration of war, you 
certainly have the right to try to do that. But I would counsel 
you also that no declaration of war has taken place since World 
War II. Since World War II.
    And no President has come here, including George Bush, who 
you cited erroneously as having done so. He did not come and 
ask for a declaration of war. He asked for an authorization for 
the use of force.
    Senator Paul. I did not say he came for a declaration of 
war, but he did come as a leader before the joint session of 
Congress.
    Secretary Kerry. But let me just finish. Let me be crystal 
clear here. You know, if you are going to be strictly 
constructionist and adhere to the Constitution in terms of what 
you are arguing about the right, declaration of war, it would 
be a mistake to ask for a declaration of war. You want a, you 
know, use of military force because a declaration of war has 
only been used against states.
    Senator Paul. I am really not making that argument. I am 
making the argument currently for a limit of geographic nature 
to whether it is a use of force or a declaration of war, that 
it should be limited because here is the problem. You are 
sending a message to the Middle East that no city is off 
limits, that if any city in the Middle East declares an 
allegiance to the Islamic State that you would be justified and 
you would have the authority to bomb them.
    Secretary Kerry. Senator, that statement is being made 
without any input or, frankly, consideration for the limits and 
strictures within which the United States of America is 
currently operating. We have some of the most extraordinary 
self-imposed restraints on our checklists for where and when 
and how we might use force even where we have been authorized 
to use force.
    And you need to review that. You need to go find out what 
restraints our military is currently operating under.
    Senator Paul. There is a very important restraint, and that 
is the Constitution that says Congress initiates war. You went 
to war in Libya without congressional authority. You have now 
been at war for 5 months without constitutional or 
congressional authority.
    Secretary Kerry. We did not go to war in Libya. It depends 
how you look at these. I mean, this term of ``war'' is, 
frankly, I think----
    Senator Paul. Oh, I forgot. That was kinetic action?
    Secretary Kerry. I think that we are not going to war in 
the way that we went to war in Iraq. We are not going to war in 
the way that we went to war in Afghanistan.
    We are engaged in what people want to call a war and can 
call a war certainly, and we have. But it is very restrained 
and different in scope.
    Senator Paul. But that is why we should be very explicit.
    Secretary Kerry. Which is why--which is--let me just 
finish. Which is why we are in favor of an authorization for 
use of military force which defines what it is.
    Senator Paul. Right.
    Secretary Kerry. But this is different. I mean, you need to 
look at the checklist our people go through with respect to 
whether or not they might take a shot at somebody. You need to 
look at the restraints the President of the United States has 
put on our military--let me finish.
    Senator Paul. This is not about whether you are 
restraining. It is about the division of power and the balance 
of power between the branches of Government.
    Secretary Kerry. No, it is bigger than that. It is really 
bigger than that. It is not just about the division of power. 
It is about what you are trying to achieve and how you can 
achieve it. And also about how you use power.
    But if you do not look at what you are trying to achieve 
and what the methodologies are, the tools that you have at your 
disposal, you are not going to get very far.
    Senator Paul. Let me ask one quick question to finish, and 
that was last year when you came before the committee for the 
Syrian AUMF, you said that there is no problem in our having a 
language that has zero capacity for American troops on the 
ground within the authorization the President is asking for.
    This was against a regime that some would argue is more 
formidable than ISIS, has greater assets for fighting war, and 
would be a much more significant opponent, or at least equally 
as significant as ISIS, but many would argue much greater. And 
there, you were willing to accept that you would have a 
prohibition on ground forces, but today you are unwilling to 
accept a prohibition on ground forces.
    How would you compare the relative strength of the two 
opponents, and why would you accept no ground forces against 
the Syrian regime that has an air force and has many more 
weapons at its command and a larger army than ISIS?
    Secretary Kerry. Are you going to let me answer this in 
full?
    Senator Paul. Absolutely.
    Secretary Kerry. Because I want to answer it. Very 
specifically, because it is an entirely different situation, 
what we were asking for in the case of the limited authority to 
have a limited strike against Assad at that time was entirely 
focused on degrading his capacity to deliver chemical weapons 
and sending a limited message. And we came here with great 
specificity about the serious limitations on what we were 
seeking.
    So asking for--allowing that restraint at that time had no 
imposition on the capacity to carry out the mission. The 
mission was going to be without troops, without ground forces. 
It was designed that way. It would have been executed that way, 
and we were losing absolutely nothing whatsoever in the 
potential because we had no intention of putting forces in to 
do what we were going to do and achieve what we were going to 
achieve.
    Now we achieved----
    Senator Paul. But that sounds similar to your statements 
that you have made about this war.
    Secretary Kerry. No. Because the President acknowledges, as 
any President would, as all of our military would, ask any of 
the people who are being asked to implement this strategy 
whether they feel comfortable knowing that they have been 
limited and what option might or might not be available to them 
if they have to do it.
    Now the President has made it clear it is not his policy. 
And I have never seen anybody more adamant about that and more 
clear in every statement he has made. They were all quoted by 
Senator Kaine. Five times or four times in the month of 
September, he has reiterated it.
    But that does not mean that you want to take away what 
might be conceivably necessary at some point in time in certain 
circumstances. The President is absolutely clear about his 
policy.
    But I have to say to you that by virtue of the President's 
decision to use force, and thank you to this committee for 
voting and having made clear Congress was moving in that 
direction, guess what? Instead of 1 or 2 days of bombing in 
order to send a message that you should not use these, we have 
got to deal with Russia to get 100 percent of the weapons out.
    And that is because you did not limit it. You left it open, 
and there was a question that we might, in fact, do what we 
said we were going to do.
    That was--actually, that is another moment where for the 
first time in history during a conflict, we have removed all 
the known declared chemical weapons from a country. And believe 
me, thank God we did. Because today ISIL is in there 
controlling half the country, and imagine what would happen if 
they would gain control of those chemical weapons.
    So it is a completely different situation, Senator, where 
you have, you know, a very limited goal, limited stated, and 
you are willing to live under it. And the Executive says I will 
live under it.
    Here, you have an Executive who does not have as limited a 
goal, but who has said already he is going to limit his means 
of achieving the goal but does not want to be hamstrung in 
every other way with respect to the constitutional authorities 
that I know----
    Senator Paul. But for those of us who believe----
    The Chairman. The Senator's time----
    Senator Paul [continuing]. Another Iraq war, that is why we 
are concerned about limiting this.
    Secretary Kerry. I well understand that.
    The Chairman. I know both of you would like to engage in a 
debate, but I have to get to another member.
    Just for the record, the Syria AUMF did, obviously had a 
limitation on ground forces, did not have a limitation as to 
the other wherewithal that the administration wanted to prevent 
chemical weapons.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your excellent work on 
behalf of our country. We thank you for your incredible service 
over these last 2 years.
    I am one of the few members of Congress who voted for the 
authorization of military force in 2001 and who voted for the 
authorization of military force in 2002. When I look back at 
that, I never contemplated that it would authorize 2.5 million 
American military personnel to go to Iraq and Afghanistan. I 
never would have envisioned that 670,000 of them would now be 
declared officially disabled, that 270,000 of them would be 
treated for post traumatic stress syndrome, that the health 
care bills would now have risen to over $1 trillion, separate 
from the $1 trillion spent on those conflicts.
    So it is a very timely debate that we are having for all of 
us, huh? We need to just turn the page and move on to this next 
stage because the use of those old authorizations do a 
disservice to this institution and to this country.
    So from my perspective, obviously, we are trying our best 
as a Congress to ensure that we do not invoke the law of 
unintended consequences, as we did with those first two 
authorizations of military force. I never imagined that George 
Bush would interpret the 2002 authorization the way he did, but 
he did. And even as we debate this authorization, it will go 
into the next Presidency.
    And so, we have to be careful necessarily. And so, I think 
that is why we are all being very cautious here because we have 
lived through this recent American history, and we do not want 
to repeat it.
    So from my perspective, Mr. Secretary, I am looking at Iraq 
right now, looking for some hope. You have had some 
breakthroughs. They have named a Sunni Defense Minister, and 
there seems to be some progress that would obviate the need for 
American combat troops on the ground in Iraq.
    Could you talk a little bit about that and the hopes that 
you have that the Iraqi Sunnis would start fighting ISIS and 
stop fighting the Iraqi Security Forces? Could you just talk a 
little bit about that and how hopeful you are that we are on 
the correct path in that country to reseal the Syrian-Iraqi 
border?
    Secretary Kerry. Well, thank you. Thank you, Senator, and 
thank you for your generous comments. And I appreciate your 
comment very much about your vote and what you did or did not 
contemplate, and I certainly would agree with you, having been 
here then and voting in that period of time.
    Which is why President Obama and Vice President Biden 
really are both so committed to an AUMF that appropriately 
reflects where we are today. And I know he believes very deeply 
that we will be stronger as a country if we have this broad 
vote that I have talked about.
    So I would say to all of you, notwithstanding the passion 
with which you approach this sense of the mistakes that may 
have been made and the open-endedness of war, et cetera, I do 
believe there are ways to craft this so that it is not open-
ended and so that there are the sufficient levels of 
clarifications about administration, et cetera, without getting 
into something that is going to be impossible to get that broad 
vote from. And I ask you to keep that in mind.
    What we get for a vote here is a very important part of 
what we are trying to achieve. The unanimity, the breadth and 
scope of support is a message to everybody involved in this--
the coalition, our troops, you know, our closest allies, and 
even to the people we are fighting.
    So I appreciate your focusing on Iraq because, in fact, we 
were deeply involved from the moment the President made the 
comment that we have to know we had a government we could work 
with in order to be able to commit to doing something. Because 
anything we tried to do in Iraq if we had not had a 
governmental transformation would never have worked, and we 
would be in a really difficult situation here.
    Who knows whether ISIL would have been in Baghdad or 
whether Iran might have decided to go even further in to be 
involved, et cetera. There are whole bunch of major strategic 
permutations that could have unfolded, but we became deeply 
engaged diplomatically, and a superb team worked hard, working 
with our allies in the region to help the Iraqis be able to 
make the choices they made. And they made them.
    It was difficult. They got a new speaker. The current 
speaker gave up his position and moved out. That took a lot of 
effort, and that opened up the door to the selection of a Kurd 
President. And that opened up the door to the selection of a 
new Prime Minister.
    And when Ayatollah Sistani and others weighed in, there 
were a whole series of events that took place that brought 
about this change in government. And just last week, we were in 
Brussels with the new Prime Minister, Prime Minister Abadi, 
speaking to some 60 entities and countries about his efforts to 
bring people together, to recognize there was no room for the 
kind of sectarian divide that had torn the place apart 
previously.
    Now Iran plays a hand here. It has got to be stated. There 
is an impact in Iraq with Iran because Iraq is 80 percent Shia, 
and there are interests. And historically--and other interests, 
I might add, religious sites, other kinds of things.
    So, hopefully, the Shia militia, with whom the current 
administration is currently working to try to restrain them 
from violence against Sunni, and the Sunni tribal chiefs can 
come together with confidence that the military is evolving in 
a way that together with their concept of a national guard and 
with new respect within the government itself for an 
inclusivity and participation, that can unite people around the 
goal of focusing only on getting rid of Daesh.
    Our feeling is that the training is coming along, that with 
the oil deal and other measures being taken, there is a 
constant effort being made to try to unite the government. 
There are still tensions.
    Importantly, regional efforts are taking place. When we had 
the meeting in Jeddah, which was the beginning of the 
organization of the coalition within the region, the Foreign 
Minister of Saudi Arabia, Saud al-Faisal, promptly stated, ``We 
will recognize the new government. We will open up diplomatic 
relations, and we will exchange visits.'' That is happening.
    Prime Minister Davutoglu of Turkey visited Iraq. The 
Emirati Foreign Minister, Abdullah bin Zayed, visited Iraq. So 
there is a regional shift taking place.
    Now we obviously hope it holds. We will work diligently 
with them. But this combination of training with the military, 
desectarianizing--I mean undoing the sectarian divide that has 
taken place, building confidence among the Sunni is going to be 
a long process, but it has started. And it is having some 
impact, and it has the potential of having a profound impact on 
Iraq itself.
    Senator Markey. And may I just say, John, that that is what 
the American people want. They want a diplomatic resolution of 
this issue amongst the people who live in both Iraq and in 
Syria and the surrounding countries. That is what they want 
more than anything, and they do not want another open-ended 
opportunity for a commitment of another 2.5 million Americans 
into that region.
    Because the potential is there for that, and there are some 
members on this committee, in fact, who believe that it should 
be open-ended. And I just think that that debate is the debate 
that we have to have this time before we go more deeply.
    Secretary Kerry. I appreciate it, Senator.
    The Chairman. Senator----
    Senator Markey. And I thank you for your great service.
    Secretary Kerry. Can I just say that President Obama 
deserves credit, Mr. Chairman----
    The Chairman. Mr. Secretary, we are going to have to 
synthesize this because we have been here 31/2 hours, and I 
still want to get to Senator Durbin.
    Secretary Kerry. Fifteen seconds.
    The Chairman. Yes, go ahead.
    Secretary Kerry. President Obama deserves credit for having 
made the decision, which I think was key, that he was not going 
to move until they began to make the moves to put a government 
change in place. And that is really what leveraged this entire 
effort, and I think he deserves credit for having done that.
    The Chairman. Senator Durbin will have the last word here 
in questions.
    Senator Durbin. My apologies, Mr. Secretary. We have a 
hearing on the state of civil rights in America that was 
scheduled that coincided with this, and I presided and could 
not attend this. But I have had a pretty good summary of what 
happened from my staff.
    Secretary and Senator, you can recall the debates in 2001 
and 2002, and some of us who voted against the invasion of Iraq 
but felt that we did the right thing in voting to go after al-
Qaeda, I do not think anybody envisioned we were voting for the 
longest war in the history of the United States of America and 
that our pursuit of al-Qaeda would take us into this situation 
today.
    And apparently, some within the administration believe that 
my vote then was an approval for what we are doing today. 
Whether I agree or disagree with the President's actions today, 
I think that is a stretch to call this an al-Qaeda operation, 
even after al-Qaeda has disavowed Daesh or ISIS, whatever the 
current nomenclature is.
    Mr. Secretary, what it gets down to is this. The President 
has said there will be no ground troops. When General Dempsey 
came and testified before Congress and said there may be ground 
troops, the administration was quick to correct him and say we 
have no plans for ground troops.
    Many of us believe that we ought to stand by the 
President's public statement about no ground troops when it 
comes to the authorization of use for military force. Our fear 
is that if we do not, either this President or some future 
President will drag us into another deep, long-lasting, bloody, 
almost pointless conflict.
    I am troubled that that is the new position of the 
administration to want authority for ground troops. I thought 
that issue was clear.
    Secretary Kerry. It is. It is absolutely clear. There is 
nothing that has changed. The President does not intend to, not 
planning to. There is no thought in his head of using ground 
troops.
    Senator Durbin. Why then object to our saying that clearly 
in the authorization for use of military force?
    Secretary Kerry. Because what is contemplated by that, I 
think, Senator, is clearly this notion that we are not going to 
do some big deployment and get involved in an enormous war. But 
if there is some one-time operation that requires X, Y, or Z. 
Now you have tried to cover some of them. You have tried to 
make that clear.
    You are already accepting that. But the issue is can you 
provide an adequate guarantee of an exception for everything 
that may or may not arise in that context only? There is no 
effort here to slide or try to change this. There is not going 
to be a big--there is no effort to do that.
    But all we are suggesting is we think there is a capacity 
to clarify, to try to work this through in a way that could 
bring both sides of this dais together in an effort to have a 
more powerful message in this vote and a clearer AUMF. And I 
think we can achieve that.
    Senator Durbin. I will just say the chairman and ranking 
member have been so patient, and I am not going to ask any 
further questions other than to say, Mr. Secretary, this is 
important, critically important. It is not just important in 
terms of those whose lives will be at risk and what we are 
trying to achieve in the Middle East. But it has an importance 
that relates to our constitutional responsibilities, each of 
us.
    Secretary Kerry. Absolutely.
    Senator Durbin. And I think that if we do not assert 
ourselves and our constitutional responsibility when it comes 
to this conflict, we are remiss. I do not want to be condemned 
by future generations for walking away from this 
responsibility. If we can work out an agreement, fine. If we 
cannot, we still have a responsibility to pass this 
authorization. I hope we do it before we leave.
    Secretary Kerry. We have three former members of this 
committee who are asking for the authorization who agree with 
you but would like to see us do it in a way that gets the vote 
we talked about.
    Senator Durbin. Thanks, Mr. Chairman.
    The Chairman. Senator Corker, final remarks?
    Senator Corker. I want to thank you for having the hearing. 
I think this is much better than what was contemplated last 
week.
    I want to thank the Secretary for coming in today and 
providing some principles that I really believe we can all 
build on.
    And I do applaud the President and you for making sure that 
in Iraq we had a different government situation there before we 
committed. I think that was a good thing.
    I do want to say again I think that we can get to a place 
where there is that broader support. I really believe that. I 
am going to say something that my friends on this side of the 
aisle will disagree with. The reason we are here is a total 
failure of the President to lead on this issue and to send 
something up here.
    And so, we find ourselves divided when, in essence, we all 
want the same thing. We want to authorize the President to be 
able to do the things that are necessary to deal with ISIS. I 
mean, I think we are united there. And the reason we are in 
this cluster, which is where we are, is because the President 
has not really sought that authorization.
    Now today you came closer, not quite all the way there. But 
you came closer to asking for an explicit authorization. Came 
closer. A better approach to me would be for you to send up the 
language that I think people have asked for, and there might be 
some common ground here, more than we think.
    But the one piece that I think is missing by not asking 
explicitly is we do not have the opportunity to really delve 
into the strategy of this, and that, you know, we are talking 
about limitations in writing. But one of the things that we 
have not had the opportunity to do, and I think anyone who 
attended the classified briefing we had a month ago with 
military leadership and others, I do not think anybody left 
there believing that we understood how we were going to deal 
with ISIS. I mean, I think there were a lot of gaps that we did 
not understand.
    So what is missing is not just the document, but it is also 
what is missing is when you seek something explicitly, we have 
the opportunity to probe how you are going to go about doing 
that. Now we just heard from leaders in the region, several of 
us with a meeting. I know there is tremendous division over the 
Assad issue. Assad is the magnet for ISIS in the first place.
    So I do hope that we will continue. I hope that you will 
send up explicit language. I hope that we will have the 
opportunity to understand how we are going to go forward.
    One of the reasons we ended up in a 12- or 13-year war is 
there was not any of this discussion on the front end. It did 
not happen. But it is not just the language. It is actually 
understanding how we are going to go about dealing with this, 
and that is a massive missing element here.
    So I want to thank the Secretary for being here. I think he 
has conducted himself fairly well, except for evading the issue 
of the explicit request. I thank him for the principles.
    I do look forward to working with you to achieve, in spite 
of all the things that I just said, to achieve a more broadly 
bipartisan support of something that I think we all agree needs 
to be undertaken. But I do not think you have yet come to us in 
a way that is appropriate in making that happen.
    But I thank the chairman for having this.
    Secretary Kerry. Mr. Chairman, can I--I am surprised by 
that. I want to get a bigger, a better grade from you, Senator. 
I quote my own testimony.
    The Chairman. He is a tough grader. So, you know?
    Secretary Kerry. We ask you now to work closely with us on 
a bipartisan basis to develop language that provides a clear 
signal of support for our ongoing military operations against 
ISIL. The authorization should give the President the clear 
mandate and flexibility he needs to successfully prosecute the 
armed conflict against ISIL and affiliated forces.
    We have requested that we work together for an AUMF. We are 
requesting an AUMF.
    Senator Corker. Mr. Secretary, well, I look forward to 
working with you a little more closely.
    Secretary Kerry. Do I get a better grade?
    Senator Corker. A little more explicitly. I will grade on 
the curve and give you a little bit better ``attaboy.''
    Secretary Kerry. The curve? The curve goes up, not down. 
[Laughter.]
    The Chairman. I am not even going to go there. Let me just 
say I want to thank you as well on behalf of all of the 
members. You know, you have a great deal of respect here, and 
you have acquit yourself most admirably today, even though I 
think some of these questions are beyond the role of the 
Secretary of State. And yet you have done a very admirable job 
of trying to explain to the committee where we are at, where we 
want to go, and how, hopefully, we can get there.
    I certainly continue to welcome, as I have for months in my 
efforts to try to develop language that can put the 
administration in a place that is in synch with the Congress 
toward our collective goal. And I have no--no concern about our 
collective goal. Our collective goal is to defeat ISIS, and I 
am convinced that we will.
    But I also think that there is a very compelling reason for 
Congress to act and to express itself, as Senator Kaine has 
said, months after we already sent sons and daughters of 
America into harm's way.
    I think this hearing has helped us crystallize some of the 
core issues that are still in difference between the 
legislative and executive branch, and I would hope that we 
could find a way to broach them. However, it is the chair's 
intention to continue a markup on Thursday. If we can work from 
here to Thursday to further narrow those, those would be great.
    But there is a majority of this committee's desire to 
express themselves on a vote on an authorization of the use of 
military force. I am going to honor that view and move forward, 
and we will see where we end up from there.
    I am not so sure that we are going to end this week in the 
session in the Senate. And if we do not, then I would actually 
argue that there should be a broader debate in the Senate as 
well. But in any event, we look forward to working with you, 
Mr. Secretary.
    And with the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 5:29 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Article Submitted by Senator Barbara Boxer

                  [From The Daily Beast, Dec. 9, 2014]

                ISIS Jihadis Get ``Slavery for Dummies''

                           (By Jamie Dettmer)
          They've enslaved thousands of Yazidi women--and now the 
        militants must follow ``rules'' laid out in an awful new list 
        of dos and don'ts, from treatment of virgins to reasons for 
        beating.

    Whom can you enslave? What can you do with female slaves? Can you 
beat them and have sex with them? The militants of the self-styled 
Islamic State, never shy to parade their gruesome, atavistic 
interpretation of the Quran and its place as they see it in the modern 
world, have now answered those questions.
    In a long list of the dos and don'ts governing the enslavement and 
treatment of women and girls captured by jihadi warriors, ISIS includes 
details of "permissible" sexual practices with female slaves. The new 
rules follow widespread reports this summer of the jihadis enslaving 
women from the Yazidi religious minority seized during the militants' 
lightning offensive in northern Iraq.
    Issued Dec. 3 by ISIS's ``Research and Fatwa Department,'' the 
rules are laid out in question-and-answer format--a kind of ``Slavery 
for Dummies.'' It is permissible to beat slaves, trade them, and offer 
them as gifts, to take virgins immediately and to have sex with a pre-
pubescent girl, ``if she is fit for intercourse,'' whatever that means.
    According to Nazand Begikhani, an adviser to the Kurdistan regional 
government and researcher at the University of Bristol Gender and 
Violence Research Center, ISIS has kidnapped more than 2,500 Yazidi 
women. Yazidi activists, meanwhile, say they have compiled a list of at 
least 4,600 missing Yazidi women, seized after they were separated from 
male relatives, who were shot.
    The women were bussed, according to firsthand accounts of women who 
have managed to flee, to the ISIS-controlled cities of Mosul in Iraq 
and Raqqa in Syria, and chosen and traded like cattle. Kurdish 
authorities in northern Iraq say they have freed about 100 Yazidi 
women. In October, ISIS justified its enslavement of the women-and of 
any non-believing females captured in battle--in its English-language 
digital magazine Dabiq. Islamic theology, ISIS propagandists argued, 
gives the jihadis the right, much in the same way that the Bible's 
Ephesians 6:5 tells ``Slaves, obey your earthly masters with fear and 
trembling.''
    The difference, of course, is that there is no rampaging Christian 
terror army enslaving women and waving the Bible around now to justify 
such abuse, although there have been individual Western cultists widely 
dismissed as cranks or madmen who have sought biblical justification 
for abuse of women.
    In September, 120 senior Muslim scholars, including Sheikh Shawqi 
Allam, the grand mufti of Egypt, and Sheikh Muhammad Ahmad Hussein, the 
mufti of Jerusalem and All Palestine, issued a lengthy letter 
condemning ISIS as un-Islamic. ``It is forbidden in Islam to ignore the 
reality of contemporary times when deriving legal rulings,'' they 
argued. And they condemned the mistreatment of the Yazidi and the 
denial of women's rights.
    Below--courtesy of the Washington, D.C.-based the Middle East Media 
Research Institute, a nonprofit organization that monitors extremism-
are some highlights of the ISIS rules governing the enslavement of 
women and how slaves should be treated.
    Question 1: What is al-sabi?
          Al-Sabi is a woman from among ahl al-harb [the people of war] 
        who has been captured by Muslims.
    Question 3: Can all unbelieving women be taken captive?
          There is no dispute among the scholars that it is permissible 
        to capture unbelieving women [who are characterized by] 
        original unbelief [kufr asli], such as the kitabiyat [women 
        from among the People of the Book, i.e. Jews and Christians] 
        and polytheists. However, [the scholars] are disputed over [the 
        issue of] capturing apostate women. The consensus leans toward 
        forbidding it, though some people of knowledge think it 
        permissible. We [ISIS] lean toward accepting the consensus.
    Question 4: Is it permissible to have intercourse with a female 
        captive?
          It is permissible to have sexual intercourse with the female 
        captive. Allah the almighty said: ``[Successful are the 
        believers] who guard their chastity, except from their wives or 
        (the captives and slaves) that their right hands possess, for 
        then they are free from blame [Quran 23:5-6]''.
    Question 5: Is it permissible to have intercourse with a female 
        captive immediately after taking possession [of her]?
          If she is a virgin, he [her master] can have intercourse with 
        her immediately after taking possession of her. However, is she 
        isn't, her uterus must be purified [first].
    Question 7: Is it permissible to separate a mother from her 
        children through [the act of] buying and selling?
          It is not permissible to separate a mother from her 
        prepubescent children through buying, selling, or giving away 
        [a captive or slave]. [But] it is permissible to separate them 
        if the children are grown and mature.
    Question 9: If the female captive was impregnated by her owner, can 
        he then sell her?
          He can't sell her if she becomes the mother of a child.
    Question 13: Is it permissible to have intercourse with a female 
        slave who has not reached puberty?
          It is permissible to have intercourse with the female slave 
        who hasn't reached puberty if she is fit for intercourse; 
        however, if she is not fit for intercourse, then it is enough 
        to enjoy her without intercourse.
    Question 16: Can two sisters be taken together while taking slaves?
          It is permissible to have two sisters, a female slave and her 
        aunt [her father's sister], or a female slave and her aunt 
        [from her mother's side]. But they cannot be together during 
        intercourse, [and] whoever has intercourse with one of them 
        cannot have intercourse with the other, due to the general 
        [consensus] over the prohibition of this.
    Question 19: Is it permissible to beat a female slave?
          It is permissible to beat the female slave as a [form of] 
        darb ta'deeb [disciplinary beating], [but] it is forbidden to 
        [use] darb al-takseer [literally, breaking beating], [darb] al-
        tashaffi [beating for the purpose of achieving gratification], 
        or [darb] al-ta'dheeb [torture beating]. Further, it is 
        forbidden to hit the face.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
